A MESSAGE FROM THE INSPECTOR GENERAL

it has been 10 years since Congress created the       specific body of work in a specific time frame)
U.S. Postal Service Office of Inspector General.      that continue to get positive feedback from
During this time, we aligned our Audit and Inves-     Postal Service management.
tigative offices with appropriate Postai Service
components to effectively carry oiit our mission.     This semiannual report focuses on six major
In the past year, we expanded our investigative       management challenges (risks) the Postal Ser-
mission to include employee mail theft, complet-      vice faced during the reporting period ending
ing the transition of jurisdiction of ati internal    September 30, 2006: Strategic Direction, Cost
crimes from the U.S. Postai inspection Service        Control, Revenue Generation, Customer Service,
(USPIS).                                              Human Capital, and Integrity and Security. The
                                                      OIG strives to assist the Postal Service in man-
To accomplish our new work, we added                  aging these risks.
additional staff, expanded our investigative
responsibilities, and establislied new offices        I thank Postai Service officials, the Governors,
across the country.                                   and Congress for their support, useful sugges-
                                                      tions, and advice, I look forward to continuing to
We also expanded our communications capabili-         help address the major risks the Postal Service
ties by introducing more efficient and immediate      faces in FY 2007.
responses to callers reporiing fraud, waste, and
misconduct affecting Postai Service programs
and operations. This expansion, called the Vir-
tual Front Office, provides access to someone
specially trained to classify and route calls to      \JClAKh CV3 Mla^ry^^
appropriate OIG staff or external organization.

During this semiannual period, April 1 to
September 30, 2006, our Office of Investiga-
tions closed 3,799 cases and referred 1,775 to
management for administrative action. Special
Agents conducted investigations resulting in 281
arrests, informations, and indictments. Fines,
restitutions, and recoveries totaled $76.4 million;
of this amount, $12,4 million was returned to the
Poslal Service, Closed investigations covered
contract fraud, embezzlement, injury compen-
sation fraud, computer crimes, and employee
misconduct.

Highlights of the Office of Audit's accomplish-
ments in this reporting period include issuing
240 audit reports that identified over $357 miilion
in cost savings or funds put to better use and
$2 million in revenue impact. The Office of Audit
tackled important issues in the Poslal Service's
network to increase efficiencies and did timely
work in the aftermath of Hurricanes Katrina and
Rita, They carried out a number of Value Propo-
sitions (agreements between audit directors and
Postal Service Vice Presidents, consenting to a
                                SUMMARY OF PERFORMANCE
                                                                                                                                                    April 1 - September 30, 2006

                                    Audit
                                    Reports issued                                                                                                                                           240
                                    Significant recommendations issued                                                                                                                        86
                                    Total reports with financial impact                                                                                                                       79
                                        Funds put to better use                                                                              .....,,.                              $280,766,200
                                       Questioned costs'                                                                                                                             $76,474,109
                                        Revenue Impact                                                                                                                               $2,029,937
                                    Total=                                                                                                                     „....               $359,270,246

                                    Investigations^
                                    Investigations completed                                                                                                                                3,799
                                    Arrests                                                                                                                                                    152
                                    Indictments/informations                                                          •..,.....,,>                                                             129
                                    Convictions/pretrial diversions^                                                                                                                           109
                                    Administrative actions                                                                                                                                   1,775
                                    Cost avoidance                                                                                                                                    $57,527,822
                                    Total fines, restitutions, and recoveries                                                                                                         $76,488,294
                                       Amount to Postal Service*                                                                                                                      $12,410,819

                                    Hotline Contacts
                                    Telephone calls                                                                                                                                                23,430
                                    e-Mail                                                                                                                                                         10,176
                                    Virtual Front Office calls                                                                                                                ,                     1,288
                                    Mail                                                                                                                                                            1,095
                                    Voice mail messages                                                                                                                                                505
                                    Facsimile- FAX                                                                   ,,„.,,.                                                                           317
                                    Total Contacts                                                                                                                                                ..36,811




                                    1 |nclu'dBSLinsLipi]orledExsisof£i4S,lDG-
                                    2 Tfie Poslal Ser\iice agreed la recommEnaaiions or propo&ed allernilive correciivs aclions lliai, if unplemenHil, coulil result IfTPHHaltiBn J35a millfein
                                    2 Slati^lics IncluEte joint Invastigailons wlin Ihe U.S, Posfai irEoecliDn Service and oihar law enlflreamnil aganElss.
                                    4 CorivKlioiisiejiDrieil In this psrkid rnay l>e related iQsri^giTiaC^ in pnor EQDixling periods,
                                    G Amountinckidad in fines,resUlullori. end reixivenas




! I Semiannual Repnrt to Congress
TABLE OF CONTENTS

Management challenges (risks) confronting the Postal Service               2
   Strategic direction                                                     3
   Cost control                                                            4
   Revenue generation                                                     11
   Customer service                                                       12
   Human capital                                                          15
   Integrity and security                                                 17
       Audit activities                                                   18
       Investigative activities                                           24

Feature story                                                             35
   Virtual Front Office (VFO)                                             35
Organizational chart                                                      36
Map of office locations                                                   37
Appendices                                                                38
   Appendix A - Reports issued to Postal Service management               38
                Reports with quantifiable potential monetary benefits     39
                Report listing                                            42
   Appendix B - Findings of questioned costs                              48
   Appendix C - Recommendations that funds be put to better use           50
   Appendix D - Reports with significant recommendations pending
                corrective actions                                        51
   Appendix E - Significant management decisions in audit resolution      53
   Appendix F - Investigative statistics                                  53
   Appendix G - Summary of U.S. Postal Inspection Service investigative
                actions under 39 U.S.C. §3013                             54
   Appendix H - Closed Congressional and Board of Governors inquiries     55

Supplemental information                                                  58
   Freedom of Information Act                                             58
   Workplace Environment                                                  59
   Glossary                                                               60




                                                                               April 1 - Seplember 30,20061 1
                                   MANAGEMENT CHALLENGES (RISKS) CONFRONTING
                                   THE POSTAL SERVICE

                                   The Postal Service is a $70 billion business delivering 212 billion pieces of mail a year
                                   (46 percent of the world's mail} to 144 million delivery points. This requires managing
                                   almost 800,000 employees and contractors. 38.000 facilities, and 214.000 vehicles.
                                   The complexity of managing such a large enterprise is complicated by macro issues
                                   such as declining First-Class l\Aail volume, and various regulatory and legal constraints
                                   that limit managerial autonomy The Postal Sen/ice and the Board of Governors are
                                   aware of the risks they face In this environment and are attentive to the issues. The
                                   fundamental challenges they continue to assess and act on Include strategic direc-
                                   tion, cost control, revenue generation, customer service, and human capital issues. In
                                   addition, maintaining the integrity and security of the Postal Service Is an inherent chal-
                                   lenge with any organization of its size.

                                   The current business environment Is especially challenging in light of the Postal
                                   Service's commitment to reduce millions of work hours, while other factors outside
                                   of the control of the Postal Service — such as the prospect of postal reform, natural
                                   disasters such as hurricanes and floods, or the fluctuation of fuel prices — impact the
                                   management and financial condition of the Postal Service. In the midst of this dynamic
                                   environment, the Postal Sen/ice continues to fulfill its legal mandate of universal mail
                                   service.

                                   Consistent with our mission to conduct audits and investigations relating to its pro-
                                   grams and operations, we have conducted an extensive body of woiii to help the
                                   Postal Service manage Its major risks.

                                   One of the ways we work with the Postal Service is through Value Propositions. These
                                   augment our ability to work jointly with the Postal Service by identifying areas that,
                                   with examination, could yield savings and maximize the value added to the Postal
                                   Service. A Value Proposition Is an agreement between the audit directors and Postal
                                   Service Vice Presidents, consenting to a specific body of work in a specific titrie frame.
                                   The agreement includes the area of focus, objectives/goals, scope of work. Oftice of
                                   Inspector General (OIG) resources. Postal Service resources, anticipated value, and
                                   deliverables.

                                   Following are more details about the management challenges facing the Postal Ser-
                                   vice and examples of our related findings and recommendations duhng the reporting
                                   period.




21 Semiannual Report ta Congress
                                                                                                                               S3
                                                                                                                               33
                                                                                                                               £i
                                                                                                                               m
                                                                                                                               o
                                                                                                                               5
STRATEGIC DIRECTION                             worksheets. We will be reviewing more                                          o
As part of its overarching strategic direc-
                                                such consolidations, as well as evaluating
                                                whether the proposed consolidations fully
                                                                                                                               55
tion, the Postal Service plans to continue
                                                consider the potential impacts on cus-
                                                                                                                               m
increasing its effectiveness and efficiency
and ensuring that products and services
are self-sustaining, while balancing legal
                                                tomer service.

                                                Although the Postal Service has made
                                                                                                                               3
considerations and stakeholder views.                                                                                          O
These are primary goals in the Postal
                                                some progress in transforming its network
                                                this year, its END implementation efforts
                                                                                                                               z
Service's Strategic Transformation Plan.        progressed cautiously. In mid-February,
The Postal Service has many important           more than 40 additional proposals for
initiatives in progress, including optimizing   consolidating processing operations were
its processing and delivery networl<s and       under consideration for implementation
increasing investments in technology to         in late spring or eariy summer, and plans
streamline operations. These initiatives are    were to have another group of proposals
critical if the Postal Service is to continue   in the late summer or eariy fall. However,
providing mail services to customers at a       the Postal Service has since scaled back
reasonable price. Historically, mail volume     these plans. Headquarters executives
(revenue) growth has covered the growth         approved implementation of only one of
of the delivery point network (cost). Today,    the proposals that were under consider-
declining First-Class Mail volumes make         ation in mid-February, and it has not yet
this increasingly difficult to achieve.         been implemented. Additional proposals
                                                have been submitted and are currently
The Postal Service's most significant effort    under consideration.
to streamline operations is its ongoing
redesign ofthe immense mail processing          Several factors have impacted the Postal
network, called the Evolutionary Network        Service's network realignment efforts.       MANAGEMENT
Development (END) initiative. This initia-      These include:                               RESPONSE TO
tive involves migration to a flexible mail                                                   OIG WORK
processing and distribution network that        • Strong resistance to consolidation
increases operational efficiency, reduces         efforts from key stakeholders. For         We a(Siere lo pralessional
                                                                                             audit standards and present
costs, and improves consistency of service.       example, one union launched an adver-
                                                                                             our audit wwK lo management
                                                  tising campaign aimed at raising public    for comments prior to
We work closely with the Postal Service           concern about maii consolidations,         issuing a final fepori. Unless
as it endeavors to transform its network                                                     Dlhervjise noted in Hie audit
to increase operational efficiency. For         • Requests from members of Congress          work dtscusseri in this report,
example, the Postal Service implemented           to suspend certain consolidations          managemeni has agreed,
nine Area Maii Processing consolidations          pending the completion of OIG or Gov-      or partially agreed, iNltti our
                                                                                             recn in menrta lions and is
between January and June of this year             emment Accountabiiity Office reviews.
                                                                                             taking, or has already taken,
We reviewed two ofttneseconsolidations                                                       corrective action to address
(in Bridgeport, Connecticut, and Pasa-          • The filing for an advisory opinion         fte Issues we raised.
dena, California) and found that they can         with the Postal Rate Commission on
be expected to reduce Postal Service              changes in postal sen/ices related to
costs and promote efficiencies. However,          END implementation. Since the filing in
the Postal Service did not always follow          mid-February, the Postal Service has
its intemal processes in preparing and            responded to hundreds of questions
reviewing the proposals, and needs to             associated with the filing and has par-
provide more specificity in its guidance          ticipated in hearings to address these
for completion and review of the proposal         concerns.




                                                                                              April 1 - Septembef 30,20061 3
                                                                                                                               i
    IK
    IP




•..
                                            COST CONTROL                               without affecting on-time service by con-
                                                                                       solidating mail and equipment loads to
                                        A management challenge facing the
                                                                                       better utilize trailer capacity. The Postal
                                        Postal Service is to control costs, espe-
                                                                                       Service took corrective action to quickly
                                        cially given the significant infrastructure
                                                                                       implement transportation reductions.
                                        investment required to meet its universal
                                        service obligation. Delivery now extends       Further, at the request of management,
                                        to more than 144 million delivery points

r                                       with about 290,000 city and rural Letter
                                        Carriers, and more than 6,000 highway
                                        route contractors with box delivery. Based
                                                                                       we evaluated proposed changes to the
                                                                                       current MTESC equipmeni inspection
                                                                                       and payment authorization process. We
                                                                                       determined changes to the MTESC qual-
                                        on these facts and our work in reiated         ity assurance process did not provide
                                        areas, we believe cost control continues       the independent quality controls needed
                                        to be a significant challenge for the Postal   to ensure that the operating contractor's
                                        Service. The greatest opportunities to         work was done properiy, equipment
                                        reduce costs are in the areas of optimiz-      met standards, or payments should be
                                        ing the network to control delivery costs,     approved. The Postal Service placed the
                                        increasing efficiencies of technology          proposed changes on hold and said they
                                        investments, and maximizing the cost-          would advise us of any additional syslem
                                        effectiveness of contracts.                    modifications.
                                        Optimization of Surface Transportation and     Hurricane Katrina-related Fuel Supply
                                        Mail Transport Equipment Service Center        Shortages and Cosl Increases. The Postal
                                        Networks. The Postai Service spends            Service uses about 810 million gallons
                                        close to $3 billion annually for contracted    ot fuel annually to operate its nationwide
                                        surface transportation to move mail and        transportation network. Increases in
                                        mail transport equipment across highway        fuel costs have a dramatic impact on
                                        and rail networks nationwide. During this      the Postal Service's costs. According to
                                        reporting period, we evaluated whether         the Postal Service, each penny increase
                                        the Postal Service can reduce costs            in the cost of a gallon of fuel costs the
                                        by reducing the number of highway              Postai Service about $8 million annually.
                                        contract trips originating at the Atlanta,
                                        Greensboro, and Dallas Mail Transport          During our audit of postal operations in
                                        Equipment Service Centers (MTESCs)             the wake of Hurricane Katrina, Postal
                                        and servicing Processing & Distribution        Service transportation and supply man-
                                        Centers (PSDCs) throughout the Great           agement officials expressed concern
                                        Lakes and Pacific Areas. We also looked        about damage to the Gulf Coast fuel
                                        at whether management complied with            industry and infrastiucture and potential
                                        the Postal Service's over-the-road (OTR)       nationwide fuel shortages resulting from
                                        container processing policy.                   the storm's impact. Officials also were
                                                                                       concerned about rising fuel prices, but
                                        We concluded that the Postal Service           said shortages were more critical in terms
                                        could save approximateiy $25 million over      of impacting the Postal Service's ability to
                                        the term of affected highway contracts by      move mail.
                                        canceling, not renewing or modifying, 420
                                        scheduled highway trips; and by stopping       Federal contingencies may alleviate some
                                        the inappropriate shipment of service-         of the impact on Postal Service opera-
                                        able OTR containers to the MTESC. The          tions caused by fuel supply shortages.
                                        Postal Service could eliminate the trips       The U.S. Strategic Petroleum Reserve,




         41 Semiannual Report to Congress
                                                                                                                                   o
                                                                                                                                   o
                                                                                                                                   W
                                                                                                                                   H
                                                                                                                                   O
                                                                                                                                   O
                                                                                                                                   z
                                                                                                                                   H
administered by the U.S. Department of             Katrina-reiated fuel costs. Since Postal
                                                                                                                                   DO
Energy, is the largest stockpile of govern-        Sen/ice Managers have little control
ment-owned emergency crude oil in the              over disruption to national oil inventories
                                                                                                                                   O
world. It provides the federal government          created by events as catastrophic as
with a response option when disruption in          Hurricane Katrina, we did not make any
commercial oil supplies threatens the U.S.         fuel-related recommendations. As part
economy it has been used only twice:               of our ongoing effort to assist the Postal
first in 1991, at the beginning of Operation       Service in controlling and reducing fuel
Desert Storm; and second in 2005, in               costs, our FY 2007 audit work will cover
response to Hurricane Katrina.                     two programs: the effectiveness of the
                                                   Postal Service's program for purchas-
During our audit, we monitored nation-             ing bulk diesei fuel, and Postal Service's
wide fuel supplies. Although significant           management ofthe Voyager Fuel Card
fuel shortages did not materialize. Hur-           program. Both programs cover thou-
ricane Katrina disrupted the Gulf Coast            sands of highway network transportation
fuel industry and created a significant            contractors. {See page 17 for related
nationwide spike in fuel prices. As indi-          investigative work in this area.)
cated by the following chart, on August
29, 2005, the day Hurricane Katrina hit            Management of the National Trailer Fleet.
the Gulf Coast, the nationwide average             We audited the National Trailer Lease
price for diesei fuel was $2,59 per gallon.        Requirements in the Capital Metro Area,
However, after the hurricane struck, diesei        evaluating trailer fleet management and
fuel prices rose to more than $3.10 per            identifying opportunities to reduce costs
gallon and did not return to pre-Hurricane         and concluded that improvements could
Katrina levels for more than 11 weeks.             be made. Due to fleet management
                                                   control weaknesses, the Postal Service
A similar analysis of all transportation-          leased more trailers than they needed.
related fuel prices suggests the Postal            The Postal Service may have missed an
Service might have incurred a total of             opportunity to save more than $402,000
more than $32.8 million m Hurricane


                        Diesel Fuel Retail Price - US Average
                      (Source: Energy Information Administration, Department of Energy)
3.20
3.00         Hurricane Katrina                                  Diesel
             August 29,2005                                  Prices Spike
2.80
                                                             $20,4 Million
2.60
2.40
                                                        Return to
2.20                                             Pre-Katrina Price - $2.59
2.00                                               November 14,2005
       June 20,2005                August 29,2005                                Novei7iber14,2005




                                                                                                     April 1 - Septemtier 30.20061 5
I
I
rr                                         when it allocated more trailers to the Cap-
                                           ital Metro Area than it needed. However,
                                           the Postal Service still has the opportunity
                                                                                               This facility also had vacant floor
                                                                                               space, which management could use
                                                                                               to house other processing operations,

                                                                                           •   Assess whether using smaller carrier
                                                                                               sequence barcode sorters located in
                                                                                               Associate Offices or Delivery Distribu-
                                                                                               tion Centers was more efficient than
                                                                                               using the larger delivery barcode sort-
                                                                                               ers located in P&DCs, Both of these
                                                                                               machines sort mail automatically in
                                                                                               delivery sequence.

                                                                                           We reviewed the use of the carrier
                                                                                           sequence barcode sorters in the Seattle
                                                                                           District, where the Postal Service has
                                                                                           discontinued using this equipment at
                                                                                           many ot its facilities. However, we found
                                                                                           that further opportunities existed to use
                                                                                           the delivery barcode sorters rather than
         Due lo lieet niaiiayemfiiil txiniroi weaknesses, the Postal Serulce leased more   the carrier sequence barcode sorters to
         iraiior.s ihan il neeUeil.
                                                                                           process mail at the North Bend, Blaine,
                                           to save more than $1.5 million by return-       and South Sound facilities. This would
                                           ing unnaeded trailers.                          reduce mail processing and maintenance
                                                                                           workhours, increase processing effi-
                                           Domestic Mail Processing Etticiency.            ciency and increase the use of DBCSs.
                                           Although the Postal Service believes            We estimate that using the existing and
               BLUE                        the END initiative will produce significant     anticipated DBCS capacity would save
                                           savings, it recognizes that this may be         10,521 workhours, which could produce
              DESIGNATION                  difficult and take many years to realize.       a cost avoidance of approximately
                                           Therefore, the Postal Service continues         $3.7 million over 10 years.
                                           to pursue cost savings within its current
                  CLASS                                                                    •   Continue to improve mail processing
                                           network. For example, the Postal Ser-
              T I M E AND D A T E                                                              efficiency and service within plants.
                  RECEIVED                 vice and the OIG wort<ed together in the
                                           Pacific and Western Areas to:                       For Standard Mail, this includes using
                                                                                               a series ot color-coded tags to ensure
                                           •   Improve the efficiency of operations            that mail is processed efficiently in
               PAU-ET HAIL                     at the Los Angeles, California World-           a first-in, first-out sequence to meet
                                               way Airport Maii Center (AMC). We               processing, dispatch, and delivery tar-
                                               concluded the Woridway AMC did                  gets. A color-coded tag represents the
                                               not fully adjust workhours in response          day of the week that mail arrived on
         ••                     m              to changes in workload, use mecha-              Postal Service premises and denotes
                                               nized equipment effectively, and staff          targeted clearance from the facility in
     This IS a blue color-coded lag            operations commensurate with the                1 or 2 days, depending on the type of
     used at the Portland, Oregon.             workload. We recommended a reduc-               Standard Mail, Left is an example of a
     P&DC,                                     tion of 760,000 workhours, which                blue color-coded tag used at the Port-
                                               could produce a cost avoidance of               land, Oregon, P&DC,
                                               about $192 million over 10 years.




        61 Semiannual Report to Congress
                                                                                                                                                              o
                                                                                                                                                              o
                                                                                                                                                              w
                                                                                                                                                              H
                                                                                                                                                              o
                                                                                                                                                              o
We also completed two audits in a series                                  records. In addition, IRU personnel enter
of reviews assessing whether P&DCs are                                    intx)und international mail volumes and                                             o
complying with the National Color Code                                    make adjustments to volumes, which the
Policy and best practices. At the P&DCs                                   International Accounting Branch uses to
in Portland, Oregon, and San Diego,                                       bill foreign postal administrations.
California, we concluded that the Postal
Service was generally processing Stan-                                    Our review found IRUs operated in an
dard Mail using the correcl color-code                                    antiquated, inefficient, and manual work
processes. Although we observed some                                      environment. Most of the work functions
Standard Mail containers without color-                                   at the IRUs, which support more than
coded tags and other containers where                                     2 million hard copy records, were manu-
the date and time were not shown on the                                   ally-dnven and paper based. As a result,
color-coded tag, we did not observe any                                   the Postal Service used more workhours
delayed mail, operational plan failures,                                  than necessary to accomplish the IRU
or negative service impacts from these                                    mission. Over the last several years, the
practices. We recommended that the                                        Postai Service began to take action to
Postal Service tighten controls over its                                  improve IRU efficiency, such as auto-
color-coding processes and provide train-                                 mating its processes and moving Irom
ing as necessary.                                                         paper-based documents to paperless.
                                                                          Notwithstanding these actions, we made
Efficiency of Intemational Record Units.                                  four recommendations to further improve
We worked with the Postal Service to                                      and update the IRU operations.
assess the efficiency of 11 International
Records Units (IRU) across Ihe nation.                                    Intemational Air Mail. The Postal Service
IRUs communicate with foreign postal                                      spends more than S200 million annu-
administrations on mailing maiters, and                                   ally to transport intemational mail, at
reconcile and maintain international mail                                 rates mostly set by the Department ot




Our revlaw Iound IriKiiialioiiiiilfecordiUnilsoiwiniKd 111 an iiiiLMiiJii'ii, .ii'^N,i,,Biit untii'ia.i   ii^iiviiuiiirt'i,!




                                                                                                                               April 1-September 30,20061 7
                                  Transportation (DOT), not the market.                          payers and taxpayers. The Postal Service
                                  Evidence suggests that the Postal Service                      shouid be free to procure international air
                                  pays more than it would on the open                            transportation the way it purchases any
                                  market. The Postal Service procures                            other form of transportation.
                                  most of its transportation from private
                                  sector carriers. It spent $211.5 million to                    Delivery Vehicles. The Postai Service main-
                                  transport international mail by air in fiscal                  tains a fleet of approximateiy 188,000
                                  year (FY) 2004, and another $358 mil-                          vehicles dedicated to delivering mail, and
                                  lion for military mail. Lifting restrictions                   can augment this fleet via lease or rental
                                  on the Postal Service's ability to contract                    agreements with employees or commer-
                                  for intemational mail air transportation                       cial vendors. The Postai Service requires
                                  would be beneficial because the Postal                         its Managers io fully use postal-owned
                                  Service would then be able to negotiate                        vehicles before approving a lease. In May
                                  its rates directly with any carrier it consid-                 2005, the Postal Service analyzed postal-
                                  ers appropriate. Deregulating international                    owned delivery vehicles and compared
                                  mail air transportation wouid achieve                          the number of motorized routes to on-
                                  market-based pricing and operational                           hand vehicle inventory In addition, as of
                                  flexibility.                                                   July 2005, the Postal Service paid about
                                                                                                 $5 million annually to employees and
                                  We believe DOT regulation of international                     commercial vendors to supplement its
                                  mail air transportation rates and require-                     delivery fleet.
                                  ments that the Postai Service use U.S.
                                  flag carriers (planes) are holdovers from                      We reviewed this issue and found the
                                  an earlier period. These requirements are                      Postal Service has made strides to
                                  economically inefficient and many stake-                       reduce costs associated with delivery
                                  holders oppose them. DOT regulations                           vefiicle expenditures over the past
                                  unnecessarily raises costs for postai rate-                    3 years. However, more efficient delivery




                              ExGBSs and underused delivery vehicles and leased delivery vehicles from enipiovees and commercial vendors m t e used iviitiii
                              Postal Service "Owned vehicles were available.




81 Semiannual Reportto Congress
                                                                                                                            o
                                                                                                                            o
                                                                                                                            CO
                                                                                                                            H
                                                                                                                            O
                                                                                                                            O
                                                                                                                            z
vehicle usage could save the Postal Ser-     • A $135 million firm fixed price pro-                                         H
vice more than $22 million in funds put to     posal for the Automated Rats Sorting
better use and unrecoverable costs over        Machines (Phase 2), which disclosed                                          O
the next 2 years. We found:                    more than $5 miilion in questioned
                                               costs;
• Excess and underused delivery vehi-
  cles and leased delivery vehicles from     • A $36 million firm fixed price proposal
  employees and commercial vendors             for the Flats Sequencing System Pre-
  were used when Postal Service-               production Program, which disclosed
  owned vehicles were available.               more than $6 million in questioned
                                               costs;
• Delivery officials did not monitor the
  reasonableness of payments or the          • Three firm fixed price proposals
  need for contracts with employees for        totaling $82 million, which disclosed
  use of their personal vehicles,              $7 million in questioned costs; and

• Management did not consistently fol-       • A settlement proposal o' more than
  low guidance and did not have visibility     $2 million, which was questioned in its
  and control of excess Postal Service-        entirety as the Postal Service did not
  owned delivery vehicles within their         order the goods invoiced.
  areas.
                                             Contract Administration. We conducted
We recommended changes to heip deliv-        two audits of the Postai Service's pro-
ery officials make better use of delivery    cess for noncompetitiveiy awarding
vehicles, use excess vehicles to reduce      contracts to former employees. We found
planned purchases of delivery vehicles       that controls over the noncompetitive
for rural routes, and reallocate vehicles    contract process were generally effec-
between areas to eliminate shortages.        tive. However, management could make
We also recommended that management          improvements by ensuring that awarded
terminate non-emergency employee and         contracts received appropriate market
commercial leases where practical, and       research, that statements of work were
establish controls to reduce the potential   adequate, and that contracls contained
for mismanagement or uneconomical            proper justification in order to decrease
expenditures.                                the risk of mishandling Postal Service
                                             funds. In addition, management needs to
Maximizing the Cost-Effectiveness of Con-    ensure that they properly classify employ-
tracts. We issued 14 contract-related        ees (and those contractors being treated
audit reports during the reporting period.   as employees) and withhold the appropri-
Specifically, we evaluated five cost pro-    ate payroll taxes.
posals associated with major systems.
We also conducted nine audits involving      Technology Acquisition Management The
rates, lease expenses, decrement fac-        Technology Acquisition Management
tors, billings, a settlement proposal, a     (TAM) organization in the Postal Service
contractor's purchasing system, a quality    manages the acquisition, testing and
system, and two accounting systems.          acceptance, deployment, and integra-
These audits identified potential contract   tion of new technology systems. These
savings of more than $21 million. Some of    systems include complex automation
our more significant work includes audits    equipment, advanced mechanization,
Qf:                                          and mail processing protection systems




                                                                                          April 1 - September 30.2006 i 9
                                   designed to increase efficiencies in mail       System (APCS) during mail processing
                                   processing and distnbution, delivery and        operations. While in operation, the BDS
                                   maii protection operations. TAM develops        consumes cartridges and buffer fluids.
                                   contract specifications and customer            Nationwide, these BDS consumables
                                   requirements, as well as deployment             cost about $526 million over the BDS'
                                   strategies and schedules.                       5-year life.

                                   In a September 2004 report, we recom-           We assessed the cost of consumable
                                   mended that the Postal Service develop          usage and determined that the usage
                                   written policies and procedures to better       exceeded AFCS operational needs.
                                   manage acquisitions, in response, the           This occurred primarily because BDS
                                   Postal Service initiated efforts to further     and AFCS start and shutdown operations
                                   develop, standardize, and document its          were not synchronized. If uncorrected,
                                   internal procedures to address program          overuse of BDS consumables would cost
                                   management activittes such as condi-            the Postal Service $79 million over the life
                                   tional acceptance criteria. The Postal          of the program.
                                   Service then sought our assistance in
                                   the development efforts, so together we         During the audit, we discussed opportu-
                                   formed a Value Proposition Agreement to         nities for a technological solution to start
                                   develop the TAM Process Guide.                  and stop the BDS in conjunction with
                                                                                   the AFCS, thereby eliminating manual
                                   The objective of the agreement was to           coordination between operations and
                                   promote acquisition practices that maxi-        maintenance. Proposals included soft-
                                   mize benefits for the Postal Sen/ice. We        ware and hardware modifications thai
                                   used benchmarking to identify areas for         management could readily incorporate.
                                   improvement, which were incorporated            Implementing a technological solu-
                                   into the TAM guide. This guide establishes      tion wouid enable the Postal Service to
                                   the control environment and infrastructure      significantly reduce the average daily
                                   for successful programs. We acknowl-            consumable usage. Management agreed
                                   edge the Postal Service's commitment            with the recommendations to pursue a
                                   to enhancing its processes by using the         technological solution and reemphasize
                                   documented procedures to strengthen             established manual procedures.
                                   its ability to deliver the right capabilities
                                   on schedule and at predictable costs.
                                   The TAfvl Process Guide is nearly com-
                                   plete, and the Postal Service will begin
                                   training employees to instill process disci-
                                   pline once the final version of the guide
                                   is published.

                               Biohazard Detection System. The Biohaz-
                               ard Detection System (BDS) is an early
                               warning system to detect biohazards
                               at P&DCs. The purpose ot the BDS is
                               to reduce the threat to Postal Service
                               personnei and the public from biohazard-
                               ous materials sent through the mail. The
                               BDS unit collects and tests air samples
                               from the Advanced Facer Canceller




101 Semiannual Reportto Congress
                                                                                                                                               m
                                                                                                                                               <
                                                                                                                                               m
                                                                                                                                               z
                                                                                                                                               c
                                                                                                                                               m
                                                                                                                                               O
                                                                                                                                               m
REVENUE GENERATION                                              Accouni Processing Sysiem (CAPS),
                                                                                                                                               z
Another management challenge facing
                                                                using a personal or business credit card,
                                                                or establishing a trust account. The mini-
                                                                                                                                               m
the Postal Service is enhancing iis core                                                                                                       3D
                                                                mum balance in the trust account must
services and providing greater value to
                                                                equal either an average week's postage
its customers while also growing revenue.
                                                                and fees or $100, whichever is higher. In
We believe ihe Postal Service could do
                                                                all areas, ihe district's Expedited Service
more io ensure all revenue is being col-
                                                                Specialists (ESS) are responsible for
lected, recorded, and reported accurately.
                                                                managing ihese trust accounts.
To ensure this occurs, we will continue
reviewing new value-added products such                         We audited 450 EMCAs in the Postal
as the Priority Mail Flat Rate Box and Pre-                     Service's nine areas and found that ESSs
mium Forwarding Service that the Postal                         did not always properly manage EMCA
Service is developing to ensure these                           trust accounts. ESSs had not collected
products are growing revenue. Following                         revenue from 179 EMCAs with overdrawn
is an example of one such audit.                                balances. As a result, the Poslal Service
                                                                has recoverable revenue of $319,014 from
Express Mail Service. Express Mail service
                                                                customers who have overdrawn EMCAs,
is the Postal Service's premium delivery
                                                                yet who continue to mail packages. Fur-
service for documents and packages
                                                                ther, ESSs did not close accounts after
weighing up to 70 pounds. Customers
                                                                negative balances existed for three con-
using Express Mail sen/ice may pay post-
                                                                secutive months. We recommended that
age wiih adhesive stamps, meter stamps,
                                                                managemeni contact EMCA customers
or through an Express Mail Corporate
                                                                to coilect the postage due or, if appropri-
Account (EMCA). Customers have three
                                                                ate, close the accounts and refer them to
options for opening and maintaining an
                                                                a collection agency.
EMCA: participating in the Centralized




Customers using Express Mail service may pay postage Willi adhesive stamps, meter stamps, of ihrough an tipress Maii
Corporate Account (ElvlCA],




                                                                                                                       flpfin-September30,20061 11
p

r
                                   CUSTOMER SERVICE                                                   Postal Service is also committed io
                                                                                                      evolving io reflect changing customer
                                   We believe that a managemeni challenge
                                                                                                      demands, designing new products to
                                   facing the Postal Service is balancing iis
                                                                                                      meet new needs, and creating new solu-
                                   mandated public service obligation with
                                                                                                      tions that customers value.
                                   the need to remain viable. In addition io
                                   timely, reliable, and accurate delivery at                         Delayed Mail. The Postal Service consid-
                                   low cosi, customers expect convenient                              ers maii delayed when ii is not processed
                                   and effective service. The Postai Service                          or dispatched to meet its scheduled
                                   has been successful in improving service                           delivery date. Under normal circum-
                                   under the Strategic Transformation Plan,                           stances, First-Class Mail should reach its
                                   even as it has reduced operational costs-                          destination anywhere within the continen-
                                   Postal Service customers have easier                               tal U.S, within three business days.
                                   access to products and information, and
                                   many more options for using ihe mail to                            In response to a November 2005
                                   maintain business and personal relation-                           Congressional inquiry, we reviewed
                                   ships. Under ihe S;rafeg/c Transformation                          allegations of delayed and undelivered
                                   Plan, ihe Postai Service aims to continue                          mail in Las Cruces, New Mexico. The
                                   its initiatives to exceed customer expec-                          inquiry stated delayed mail resulted in
                                   tations — by focusing on core business,                            businesses putting "stop payments"
                                   Isolating and eliminating quality problems,                        on undelivered, lost, or late checks; the
                                   managing io standards buiit around the                             Department of Labor levying fees for late
                                   customer, and quickly replicating suc-                             reporis that were actually posted timely;
                                   cesses across ihe organization. The                                the need to reissue employee child sup-




                                   In anolher review al Iha Dallas Bulk Mail Centa-, v « found delayed mail was nol accurately repotted on the
                                   mall Condi lion report.




    121 Semiannual Reportto Congress
                                                                                                                                o
                                                                                                                                w
                                                                                                                                H
                                                                                                                                o
                                                                                                                                m
port checks; contracting bids lost in           to us during interviews in April. We found                                      CO
the mail; and delays of up to 2 weeks to        no evidence to substantiate the claim                                           m
deliver mail within the state.                  that postal employees had stored or hid-
                                                den mail in vehicles off-site.                                                  <
Our review confirmed that delayed                                                                                               O
mail existed at the Las Cruces Carrier          In another review ai the Dallas, Texas,
Annex and the Main Post Office, causing         Bulk Mail Center, we found delayed mail                                         m
repeated customer complaints. Further,          was not accurately reported on the mail
management had not taken timely action          condition report. Our tests show/ed that
to correct the situation. Management met        delayed mail was underreported over a
with us in December 2005 to discuss             2-week period in June 2006, by 243,000
the Congressional inquiry and how to            mail items, inciuding pieces, bundles,
correct ihe delayed mail problem. Postal        and trays. Although we did not find this to
Service officials were confident that they      be deliberate, by underreporting delayed
could correct conditions associated             mail the Postal Service understated the
with delayed maii and agreed with our           problem, and consequently did not take
findings and recommendations. We rec-           timely aciion to correct the delays. During
ommended thai management establish              the review, the Postal Service began tak-
procedures to track and monitor the             ing corrective action in this area.
implementation of recommendations
from managemeni reviews. Additionally           Ghost Numbers. A Mail Service Provider
we recommended that management                  (MSP) specializes in preparing mailings        AUDIT WORK
evaluate and respond timely io customer         tor customers. Some MSPs perform
                                                                                               Ihe cumulative elJons of
complaints. Postat Service officials            the entire mail preparation and induc-
                                                                                               the DIG pursuing \\s mission
stated that the delayed mail problem was        tion process, from printing maiipieces         benefits llie Postal Serwce
due to turnover of district management          to depositing ihem into the mailstream,        in many ways For example,
siaff, insufficient staff at Ihe facility and   while others presort and mail under            we conducted unannounceff
                                                                                               audits at a Newark post
untimely response to recommendations            the MSP's permit number, MSPs may
                                                                                               office since FV 2002. This
made in a management review.                    combine their customers' maii io take          unit —with more flTanSl5
                                                advantage of lower postage rates, such         million in annual revenue
Following a March 2006 Congressio-              as bulk rates.                                 — has had repeated internal
                                                                                               CQhlroi and compliance issues
nal inquiry, our Office of Investigations                                                      related to accourlability
looked at allegations about mail delayed        When an MSP presents a mailing, ihe
                                                                                               examinations; trust and
in the Los Angeles District, The Member         Posiai Service requires a postage state-       suspense items: inactive
heard that noi only was mail delayed,           ment. A postage statement lists ihe            BuBinsss Reply Mail <BRM)
but the delays were not properly                name and permit number ot the MSP in           acxxunis; payroll: and Voyager
                                                the "By" field (if the MSP is mailing under    and IMPAC carcfs. In FY 2006,
recorded and delayed mail was hidden                                                           Ihai^s !D the Postmaster and
off-site. We confirmed that ihere was           its own permit number), and the name           his staff's hard mrk, we did
substantial delayed mail over the winter        and permit number of the mail owner in         not identify any significant
(2005-2006). However, we found the              the "For" field (if the MSP is mailing under   internai control or compiiance
                                                its customer's permit number). When            issues and issued a "no-
delayed mail was properly documented                                                           fmdlngs" report.
in the Mail Condition Reporting System          no permit number is associated wiih
(MCRS), and was not hidden from Dis-            a mail owner on a postage statement,
trict management. In fact, the facility was     acceptance Clerks at ihe Business Mail
reporting substantial amounts of delayed        Entry Unit create a "ghost" permit num-
mail daily. We also noted ihat the mail         ber in the PostalOne! system identifying
flow later improved, as Postmasters at a        the mail owner. The Postal Service uses
number of receiving locations confirmed         these fields on postage statements to
                                                collect customer information for




                                                                                                 April1-Se[^iitwr30,20061 13
                                marketing purposes, and to track mail                                      Application and Customer Profile, to
                                volume and sales revenue by customer.                                      include a notice explaining the intended
                                                                                                           use of customer data collected. Postal
                                We reported thai ihe Postal Service                                        management implemented recom-
                                could improve its collection and use                                       mendations for PS 3615 and clarified
                                of customer informaiion. We recom-                                         instructions for acceptance Clerks.
                                mended thai ihe Postal Service clarify
                                procedures tor Mail Acceptance Clerks
                                to follow when mail service providers do
                                noi identify the mail owners in the post-
                                age statement's "For" field; and revise
                                Posiai Service Form 3615, Mailing Permrt




                                    We recommenOed tiwi lli(-;l'i.islult;ijr'j!i:c'jlaiily procedures loi Maii Accepiance Clerks lolollowwiii^i! irali aci vice proviCers do
                                    not identify the mail owners in tlie postage statements.




141 Semiannual Reporl to Congress
                                                                                                                                >
                                                                                                                                z
                                                                                                                                o
                                                                                                                                >

HUMAN CAPITAL
Another management challenge the
                                                 result in a substantial savings to the
                                                 Postal Service.                                                                3
Postal Service faces is ihe resolution of        During this reporting period, we con-
workforce and workplace issues. Adding           ducted several reviews of ihe Postal
to that challenge is the need io create          Service workers' compensation costs.
a flexible workforce as part of the END          Specifically,                                 AUDIT WORK
initiative. Further, controlling cosis associ-
                                                                                                During an audit in
ated with workplace programs, such as            • A review of controverted and chal-           Oklahoma, we shared a
workers' compensation programs and                 lenged workers' compensation claims          best practice from the
grievance-arbitration service centers, is          in selected areas found the Postal           Pacific Area, vrfiich was
important to the Postal Service's success.         Service ensured only eligible employ-       subsequently implemented
                                                                                               by aie Oklahoma District
                                                   ees were placed on the periodic roll.       and now helps pieveni
 Workers' Compensation Programs. A signifi-        However, we also found that the             iJogtetes. This dog bile
cail cost ihat impacts ihe Postal Service          Postal Service did not always properiy      prevwiBon concept was
is workers' compensation expenses for              controvert and/or challenge claims,         later featured on an
injured wor(<ers. The size ofthe bargain-                                                      Oklahoma news station as
                                                   nor did they consistently track and         a special report on "Red
ing unit workforce and nature of work              monitor the claims in accordance            Ragged Mail Routes," This
performed are the primary factors that             with Postal Service policies and            besI practice incorporated
made the Postal Service the largest                procedures. For example, of the 139         the use of Map Point
participant (47 percent of the total federal                                                   sottware, which enables
                                                   claims reviewed totaling $533,760 in        users to discover patterns
workforce cases) in ihe Department of              workers' compensation benefits, we          and target problem areas
Labor's (DOL) Office of Workers' Com-              identified seven claims in which the        by tracking accidents and
pensation Programs (OWCP) in 2006.                 Postal Service did not provide detailed      incidents — Inciuding
                                                                                               those involving datiflerous
                                                   information to support its position that    dogs.
Although the Post^ Service has taken               employees were not entitled to ihese
positive steps over the past 3 years
                                                   benefits. As a result, the Postal Service
to reduce workers' compensation
                                                   paid more than $57,000 for workers'
expenses, in chargeback year 2006
                                                   compensation claims accepted by the
these expenses increased from
$840 million to $884 million (5 percent).          OWCP, that if properiy controverted
                                                   or challenged, may have been denied.
According to ihe Postai Service, the               Further, we projected the Postai
increase was caused in part by techno-             Service did not recover more than
logical improvements that reduced ihe              $108,000 in continuation of pay (COP)
number of rehabilitation assignments               benefits for chargeback year 2004
available for injured employees. At the            workers' compensation claims the
same time, administrative fees OWCP                OWCP denied.
charged to the Postal Service, which
                                                 • An initiative led by the Postal Service,
are set by statute and therefore binding,
                                                   which used an OIG-developed
increased from $37 million in 2001 to              database, discovered more than
S48.3 million in 2006 (aboui 30 percent).          $3.8 million in duplicate medical pay-
These fees represent approximately                 ments since July 2003, ot which
5 percent of the Postal Service's totai            $711,689 was credited back to the
medical and compensation costs. We                 Postal Service by OWCP as of Sep-
have encouraged ihe Postal Service to              tember 2006. The OWCP is noi
seek legislative change for the replace-           required to reimburse agencies for ihe
ment of the DDLs OWCP which could                  administrative fees they charge to
                                                   process duplicate payments,




                                                                                                April 1-September 30,20061 15
                                   The Postal Service's so. grievance-arbitration service centers were In Eompilance wilh national and local union agreement
                                   provisions lor logging appeals and scheduling arbitrations

                                      rendering approximately $195,000,                              Service could improve internal controls to
                                      (about 5 percent of the duplicate pay-                         ensure full operational efficiency. In addi-
                                      meni amount) unrecoverable for the                             tion, we found opportunities to reduce
                                      Postal Service.                                                costs associated with lost hearing daies
                                                                                                     where ihe Postal Service paid cancella-
                               • A review of schedule award paymenis                                 tion fees. For example, the Postal Service
                                 in ihe New York Metro Area concluded                                incurred more than $356,000 in unrecov-
                                 the Postal Service may have been                                    erable questioned costs for FYs 2004 and
                                 overcharged $10,750 and under-                                      2005 for arbitrators who received late noti-
                                 charged $15,060, in chargeback years                                fication of cancelled hearing dates, some
                                 2004 and 2005, Although the amounts                                 of which could have been avoided. Finally,
                                 are noi significant when compared to                                we recommended that the Postai Sen/ice
                                 the totai schedule award payments in                                could save $5.5 million over a 10-year
                                 ihe area ($6.7 million), they highlight                             period by consolidating the six service
                                 ihe fact that some employees may not                                centers. However, it must accomplish
                                 have received benefits to which ihey                                any consolidation with the cooperation
                                 were entitled, while others may have                                of the four major unions, since manage-
                                 received more.                                                      ment alone cannot initiate a consolidation
                                                                                                     withoui the unions' agreement. Our report
                               Grievance-Arbitration Service Centers. We
                                                                                                     contained nine recommendations to
                               reviewed the qualiiy of operations at the                             improve the operations of the six service
                               Postal Sen/ice's six grievance-arbitration                            centers. Management agreed with five of
                               service centers and concluded that the                                the recommendations, said they needed
                               service centers were in compliance with                               to conduct more research and study
                               the relevant provisions of national and                               regarding two ot them, and disagreed with
                               local union agreements reiated to the                                 the remaining iwo. We are working with
                               logging of appeals and scheduling of arbi-                            management to resolve the disagreement.
                               trations. However, we believe the Postal




161 Semiannual Reportto Congress
                                                                                                                                                                  m
                                                                                                                                                                  O
                                                                                                                                                                  X
                                                                                                                                                                  H
                                                                                                                                                                  -<
                                                                                                                                                                  >
INTEGRITY AND SECURITY                                             network infrastructure and voice systems.                                                      Z
                                                                   Ultimately, this integrity helps maintain                                                      D
The integrity of processes and personnel
                                                                   a stable, sound, and transparent Postal
is an essential element for safeguarding
                                                                   Service. Following is audit work con-
Postal Service products, customers,                                                                                                                               m
services, and assets. This includes data
                                                                   ducted in this area.
                                                                                                                                                                  o
accuracy completeness, and the privacy                             Postal Service Effectiveness in Times of
of electronic information maintained within                        Disaster. During its long history, the Postai
the Postal Service's network infrastruc-                           Service has faced both natural and man-
ture and voice systems. Ultimately, this                           made disasters ihat adversely impacted
integrity helps maintain a stable, sound,                          mail deiivery. Such incidents led to a
and transparent Postal Service.                                    renewed emphasis on more effectively                                                           >
                                                                   securing the nation's mail system. Our                                                         c
Audit Activities                                                   audits focus on key vulnerabilities to help                                                    g
Auditors assess the integrity ot processes                         the Postal Service further protect the
and programs to safeguard Postal Ser-                              integrity of the mail stream,
vice products, customers, services, and
                                                                                                                                                                  >
assets. Auditors evaluate data accuracy                            In support of Postal Service security                                                          O
and completeness as well as the security                           we participate in the Maii Security Task
and privacy of electronic informaiion                              Force and attend training relating to                                                          <
maintained within the Postal Service's                             emergency planning and dangerous mail                                                          H
                                                                                                                                                                  m
                                                                                                                                                                  C/)




Ovorall, wu luimd thai the Posiai Servieo responded to Hurricanes Kaiiina and Rita rapidly and successfully under difficull and
unprecBdenteO circumsiances.




                                                                                                                                  April 1-September 30.20061 17
                                      investigations. We are also a member                              were secure and operational. Further,
                                      of the President's Council on Integrity                           U.S. Postal Inspection Service (USPiS)
                                      and Efficiency (PCIE) Homeland Security                           personnel escorted fuel and other recov-
                                      Roundtable, which shares information                              ery-related goods (such as lights and
                                      on related security work performed by                             generators) into Alabama, Louisiana, and
                                      all OIGs. in one collaboration, the PCIE                          Mississippi. The USPiS also initiaied an
                                      tasked the Inspectors General with                                educational campaign to prevent fraud
                                      assuring appropriate oversight of financial                       schemes related io Katrina relief efforts.
                                      and procurement processes and opera-
                                      tions relating to Hurricane Katrina. We                           In a review of the actions taken by the
                                      then established a task force of auditors                         Postal Service and the USPIS io locate
                                      and investigators who conducted exten-                            employees in the days after Katrina,
                                      sive work on this issue.                                          we concluded that ihese actions were
                                                                                                        timely and effective. We aiso determined
                                      During the course of our reviews after                            that the Mississippi District's actions to
                                      Hurricanes Katrina and Rita, we found                             track employees' locations in the days
                                      ihai more than 300 Postal Inspectors                              and months following the hurricane
                                      and Posiai Police Officers responded                              were effective, but ihe Southwest Area's
                                      io safeguard Postal Service employees,                            actions needed improvement. Although
                                      provide security guidance to posiai Man-                          employees were responsible for inform-
                                      agers, and ensure ihat infrastructures                            ing the Postai Service of their locations
                                                                                                        as they moved about the country,
                                                                                                        Katrina's catastrophic effects were so
                                                                                                        overwhelming ihey may have precluded
                                                                                                        many employees from keeping in contact
                                                                                                        with their empioyer. Our report included
                                                                                                        one recommendation for the Posiai
                                                                                                        Service to improve its ability to accouni
                                                                                                        for employees after a natural emergency.
                                                                                                        Management agreed to implement ihe
                                                                                                        recommendation.

                                                                                                        Further, we reviewed the Postal Service's
                                                                                                        and USPIS's procurement transactions
                                                                                                        related io Hurricane Katrina response,
                                                                                                        recovery, and reconstruction efforts io
                                                                                                        determine whether the USPIS had effec-
                                                                                                        tive controls over these transactions.
                                                                                                        Overall, we found ihai the Posiai Service
                                                                                                        and ihe USPIS had effective controls over
                                                                                                        procurement transactions and that these
                                                                                                        were valid, authorized, and supported by
                                                                                                        the appropriate documentation. However,
                                                                                                        the Postal Service could make improve-
                                                                                                        ments to ensure International Merchant
                                                                                                        Purchase Authorization Card (IMPAC)
                                                                                                        holders sign U.S. bank statements within
 in a review of the aclions taken by ffie Postai Service and the USPiS to locate employees in IheOays   5 days of receipt, as policy requires.
 after Katrina, ™ concluded tital these actions were timely and effective.




181 Semiannual Report to Congress
                                                                                                                                               H
                                                                                                                                               m
                                                                                                                                               o
                                                                                                                                               X
                                                                                                                                               H
                                                                                                                                               -<
                                                                                                                                               >
•.^^;•v;•;:^'"•'N^~"••=^:•.•                                      can use the network more effectively to                                      Z
                                                                  relieve disruption during natural disasters
                                                                  or terrorist attacks.
                                                                                                                                               o
                                                                  We recommended that Postal Service                                           m
                                                                  officials verify the aclual termination of                                   O
                                                                  unneeded highway conlract routes and                                         c
                                                                  coordinate with federal authorities to
                                                                  better leverage Posiai Service capacity                                      H
                                                                  during future national emergencies.

Our audit founO the Postal Servce took steps in anticipation nl   While the Posiai Service took noteworthy                                     >
Hun'icane Katrina and re^onded rapidly lo Ibe storm's impaci      actions in responding to the hurricanes,
on the Gull Coast.                                                opportunities exist to enhance emer-
In addition, we audited the Postal                                gency preparedness (EP) and responses
Service's response io Hurricane Katrina,                          in the event of a future natural disaster.
                                                                                                                                               >
focusing on its transportation, infrastruc-
ture, and logistical support activities,
                                                                  Specifically, managemeni needs to:
                                                                                                                                               o
such as fuel management. We reviewed
                                                                  •    Revise ihe Integrated Emergency
                                                                      Management Plan (lEMP) to sufficiently
                                                                                                                                               H
whether Postal Senyice transportation
                                                                      address area and headquarters-level
and logistics were effective in preparation
                                                                      functions, including coordination
for. during, and immediately after Hurri-
cane Katrina; and whether Postai Service
                                                                      with the federal government during                                       m
                                                                      responses that require Postal Service
officials protected iis resources.
                                                                      involvement in the National Response
Our audit found the Postal Service took                               Plan,
steps in anticipation of Hurricane Katrina
                                                                  • Ensure that field operations person-
and responded rapidly to the storm's
                                                                    nel compleie, approve, validate, and
impact on the Gulf Coast. As a result,
                                                                    implement lEMPs, which incorporate
it preserved funds and other resources
                                                                    both stand-alone plans for hurricanes,
and made the task of reconstituting its
                                                                    as well as lessons learned,
network less difficult. We concluded that
timely action to suspend and terminate                            • Develop an alternative incident man-
unneeded highway contract routes in                                 agement sysiem to assist the Postal
the hurricane emergency zone saved                                  Service in managing emergencies
the Postal Service about $2.8 million                               throughout each stage of EP.
and made those funds available for
other emergency transportation needs.                             • Establish performance measures for
Despite the efforts of its supply manage-                           all hazards io achieve emergency
ment and contracting officials to protect                           managemeni goals that effectively
federal resources, the Postal Service may                           enhance the Postal Service's EP and
have incurred more than $32.8 million                               incorporate them into the core goals
in excess fuel costs related to Hurricane                           for headquarters, area, and field-level
Katrina due to disruption to the Gulf                               emergency Managers.
Coast's oil industry Additionally the audit
disclosed that since the Postal Service                           • Identify and develop mandatory EP
transportation and logistics network is                             training ai each level of the Postal Ser-
well established, the federal government                            vice for hazards, as necessary, based
                                                                    on risks and vulnerabilities.




                                                                                                                April 1-Septamber30,20061 19
                                          Overall, we found that the Postal Service   lists to U^e Payment Switch sysiem
                                          responded to Hurricanes Katrina and Rita    assessments, and updating security
                                          rapidly and successfully under difficult    guidance.
                                          and unprecedented circumstances. As
                                          a result, the Postai Service safeguarded    Enterprise Payment Switch Solution Phase 1:
                                          employees, continued to deliver the mail    Requirements and Design, in calendar year
                                          in the Gulf Coast region, and protected     2005, the Postal Service processed
                                          ihe sanctity of ihe mail and the nation's   around 250 million debit and credit card
                                          mail sysiem.                                transactions, inciuding transactions
                                                                                      originating at self-service centers and
                                      Information Security. The Posiai Service        traditional post offices nationwide, as well
                                      established ihe Informaiion Security            as transactions originating through mail
                                      Assurance (ISA) process io ensure that          orders, telephone orders, and the Inter-
                                      application security risks are evaluated        net, The total value of transactions
                                      and security controls are documented            processed in FY 2005 exceeded
                                      and tested prior to application deploy-         $8.3 billion..
ENTERPRISE PAYMENT                    ment. A review of the ISA process
SWITCH                                confirmed ihat the Postal Service has           We worked with the Postal Service to
The Payment Switch is                 made progress in clearing ihe backlog           evaluate the security ot the proposed
off-the-shelf hanJware/               of ISA projects and implementing a              credit and debit processing solution to
software ttiat capturra               more comprehensive vulnerability testing        verify that ihe roufing and storage of
electronic payment                    program. However, additional work is            customer information is secure wiihin
transactions and submte                                                               the Postal Service systems and ihe Pay-
them lo the card
                                      needed to ensure that the Postal Service
processors for payment.               completes all ISA processes thoroughly          ment Switch environment. Our project is
Scheduled for production              and timely The Postal Service also needs        divided into multiple phases to facilitate
In 3007, the Paymeni                  to address issues related io ihe accuracy,      timely reporting in step with the Postal
Switch supports a broad               consistency, reliability, and availability      Service development and implementa-
range ol electronic                                                                   tion of the Paymeni Switch solution. We
payment types, inciuding
                                      oi daia wiih ihe Enterprise Informafion
                                      Repository.                                     conducted Phase 1 of ihe project during
credit card, debit card,
checks, and Internet                                                                  the development of the Paymeni Switch
payments. Due to the                  Two other reviews also provided recom-          solution.
number of transactions                mendafions for improving ISA processes.
ttie Postat Service                   An application control review of the            Audit work to date encompassed the
processes each year, it Is                                                            Payment Switch design as well as sys-
                                      Change of Address sysiem determined
required to comply wilh                                                               tems and components that will feed
the terms of IJie Payment             that the Postal Service deployed its
CartI Industry (PCi] Data             Postal Automated Redirection Sysiem             into or receive output from the Payment
Security Standard (DSS),              without completing a code review,               Switch. We also evaluated the design of
and have an annual                    security evaluafion, certiiicafion, and         the Paymeni Switch in ihe context ofthe
on-site security audit antl                                                           Payment Card Industry (PCI) Data Secu-
                                      accreditation and acceptance letters.
quarterly network scans                                                               rity Standard (DSS) and Postai Service
performed.                            We recommended thai the Postal
                                      Service complete ihese documents.               policies. We will focus on system integra-
                                      Finally, a review of the requirements and       tion and customer acceptance testing,
                                      design of the Enterprise Payment Switch         data transmissions, and mainframe
                                      Solution provided three recommenda-             controls during ihe second phase oi ihe
                                      fions for incorporating exisfing security       project.
                                      requirements into security assessment
                                      checklists, applying the updated check-         Overall, we believe the Postal Service is
                                                                                      making security a priority as it designs




     20 i Semiannual Report to Congress
                                                                                                                                                       m
                                                                                                                                                       O
                                                                                                                                                       H
                                                                                                                                                       -<
                                                                                                                                                       >
and develops the Paymeni Switch                                                                                                                        Z
system with security as a priority The                                                                                                                 D
findings and recommendations pre-
sented in our Phase 1 report provide the                                                                                                               C/)
                                                                                                                                                       m
Postai Service with areas where improve-
                                                                                                                                                       o
ments could be made to further enhance
the security of ihe system and prepare it                                                                                                              c
for compliance wiih PCI requirements.
                                                                                                                                                       H
Management agreed with nine recom-                                                                                                                     -<
mendations, but disagreed with our
recommendation to synchronize system                                                                                                                   >
time clocks across Payment Switch                                                                                                                      c
vendors. Management noted that syn-                                                                                                                    g
chronizing system clocks with all parties                                                                                                              H
involved wiih ihe Payment Switch project
is a complicated initiative and is not
considered part of the project. We agree
that synchronizing system clocks is not
                                                                                                                                                       <
a simple task but encourage the Postal
Service to reconsider this requirement as                                                                                                              H
they move forward with development of          Routers and switches are critical components ol Postai Sei"vice leiecommunicalion services.             m
the Payment Switch solution.
                                               potential weaknesses in the managemeni
Router and Switch Controls. Routers            of these devices.
and switches are critical components
of Postal Service telecommunication            Security Assessment Audit of Telephone
services. With increased reliance on           Lines and Modems. Each year we conduct
electronic commerce and networking,            various security assessments to ensure
equipmeni failures or breaches of ihese        that computer systems provide a level of
components can severely affect the             security commensurate wiih the critical-
Postal Service's ability to deliver informa-   ity o! Ihe system and the information it
tion across and outside the organization.      contains. We conduct phone sweeps of
As a result. Postal Service operations         the Postal Service's telephone network to
and reputation depend on secure and            ensure that modems and olher potential
reliable routers and switches.                 telephone network vulnerabilities have
                                               been properiy secured. This year, we
We determined thai, overall, information       conducted modem security assessments
technology center policies and proce-          in the Eagan, Minnesota, and San Mateo,
dures provide adequate control over            California, Information Technology and
routers and switches. However, io fijrther     Accounting Service Centers (IT/ASC).
enhance the security and administra-
tion of these devices, ihe Postal Service      Modems represent a point of vulner-
could implement improvements that              ability for most computer networks
would strengthen ihe management of             because they are designed to provide
network topology inventory, access, and        access around, rather ihan ihrough,
change control. Furfiiermore, retaining        typical network perimeter defenses
critical configuration files off-site and      such as firewalls and intrusion detection
reviewing them annually mitigates              software. Working in cooperation with




                                                                                                                        Aprill-September 30,20061 2J
r
                                         Postal Service officials, our phone sweep       performed these audits, requested by
                                         security modem assessments identified           management, to validate Postal Service
                                         opportunities to strengthen access con-         actions taken in response to KPMG inter-
                                         trols to sensitive networks by employing        national recommendations forthe PKI
                                         stronger and more effective safeguards.         environment.
                                         Our assessment is that Postai Service
L                                        telecommunication professionals do an           The key generation ceremony (KGC) is
                                                                                         a formal process which provides assur-
r                                        effective job managing security conirols
                                         for modems.

                                         Providing Reliable and Transparent Informa-
                                                                                         ance ihai certificates are generated and
                                                                                         protected in a trusted and reliable way,
                                                                                         and is a critical step in the deployment of
                                          tion - CA-PKI. The Postai Service requires     a PKI. During a KGC, root keys are gen-
                                         accurate information to make decisions          erated, cloned, and stored securely.
                                         ihai affect day-to-day operations, io meet
                                         Congressional reporting requirements,           The first report in June 2006 highlighted
                                         and to conduct long-term planning. To           the generation of the initial PKI key and
                                         be effective, the information must also         resolution of nearly all ihe KPMG docu-
                                         be timely, reliable, and available to those     mentafion recommendations. However,
                                         who need it, yet protected from those           corrective actions for a number of the
                                         who do not.                                     operational recommendations were still
                                                                                         in process. We concluded that, wiih ihe
                                         Homeland Security Presidential Directive        completion of the formal key genera-
                                          12 (HSPD-12) established a federal policy      tion ceremony and with ihe exception of
                                         to create and use a government-wide             those items thai still require corrective
                                         secure and reliable form of identification      action, the Postal Service had made
                                         for federal employees and contractors.          significant progress implementing the
                                         A secure and reliable form of identifica-       CA-PKl environment under the require-
                                         tion would include an external digital          ments of HSPD-12.
                                         certificate from an external Certification
                                         Authority (CA)/Public Key Inirastructure        We followed up with a second report in
                                         (PKI). A digital certificate is an electronic   September 2006 ihat described improve-
                                         identity card ihai establishes credentials      ments made to ihe documentation and
                                         when doing business or other transac-           operational environments since we
                                         tions on ihe Web. A CA is a trusted             issued ihe first report, in general, wiih
                                         third party responsible for issuing and         ihe exception of 27 operational items
                                         managing digital certificates. Further, as      that we were unable to validate because
                                         a main component of the PKI, a CA certi-        they require specific additional activi-
                                         fies that the individual granted the digital    ties or events io occur, we determined
                                         certificate is who he or she claims to be,      the Postal Service corrected issues
                                         PKI is a combination of technology (hard-       identified in ihe KPMG compliance
                                         ware and software), process (policies,          audit. Management concurred wiih our
                                         practices, and procedures), and legal           recommendation to compleie ihe PKI
                                         components (agreements).                        operational environment by establishing
                                                                                         the HSPD-12 Registration Authorities and
                                     During this reporting period, we issued             Subscribers and implementing the disas-
                                     iwo reports on the results of our follow-           ter recovery backup environment.
                                     up audit of the Certificate Authority Public
                                     Key Infrastructure (CA-PKl) Compliance
                                     at the Eagan, Minnesota, IT/ASC. We




    22 I Semiannual Reporl to Congress
                                                                                                                                                                     m
                                                                                                                                                                     Q
                                                                                                                                                                     H
                                                                                                                                                                     -<
                                                                                                                                                                     >
                                                                                                                                                                     Z
                                                                                                                                                                     o
                                                                                                                                                                     0)
                                                                                                                                                                     m
                                                                                                                                                                     O
                                                                                                                                                                     c
                                                                                                                                                                     H

                                                                                                                                                                     :<•


                                                                                                                                                                     g
Tbe Poslal Service is iiiipleiiienling an Enlerprise Resources Planning JERPJ system to replace more than 7Q legacy syslems that
cuirentiy suppori ihe agency's immanresourcesand payroll systems.                                                                                                    <
Human Capital Enterprise SAP Human                                 U.S. Postal Inspection Service Oversight
Resources Project The Postal Service is                            Under the Inspector General Act of 1978,                                                          m
implementing an Enterprise Resources                              as amended, we are required io provide                                                             CO
Planning (ERP) system io replace more                             oversight of the USPIS. We conducted
ihan 70 legacy sysiems that currently                             ihree qualitative assessmeni reviews of
support ihe agency's human resources                              investigative and related administrative
and payroll systems. When fully imple-                            processes. As a result, USPIS manage-
mented, the Postal Service will use SAP                           meni made changes to investigative
R/3, a commercial ERP solution, to incor-                         procedures io improve managemeni
porate human resource functionality for                           controls and agreed to provide additional
all Postai Service employees into a single                        training to Posiai Inspectors to address
integrated sysiem. Data preparation and                           the issues identified during our reviews.
testing issues delayed the initial imple-
mentation of the Triboro performance                              We reviewed ihe Consumer Fraud
cluster in ihe New York Metro Area until                          Awareness Fund (CFAF) and found that,
January 2006, with the nexi two clusters                          overall, the USPIS managed the CFAF
and the shared services center sched-                             efficiently and effectively, and has effec-
uled to come online in February 2007. We                          tive conirols to reduce the risk of CFAF
continue to monitor ihe Posiai Service's                          fraud, waste, and mismanagement.
implementation ofthe SAP human                                    Specifically, it has;
resource system and have issued three
                                                                  • Documented policies and procedures
reports since September 2005 address-
                                                                    regarding ihe transaction and approval
ing; the need for core security oversight
                                                                    process,
and change managemeni; conirols over
access to sensitive data; and roles and                           • Implemented procedures to ensure
separation of duties.                                               separation of duties to reduce the risk
                                                                    of error, waste, mismanagement, and
                                                                    fraud.




                                                                                                                                   April 1 - Seplember 30,20061 23
                                   • Provided senior managemeni with            Investigative Activities
                                     regular reports on One status of ihe
                                                                                The investigative efforts of Speciai Agents
                                     fund..
                                                                                assist the Postal Service in detecting and
                                   • Reported io senior management              deterring misconduct and helps maintain
                                     all expenditures that could give the       the integrity of the postal sysiem and its
                                     appearance of inappropriate use.           employees. The vast majority of postal
                                                                                personnel are dedicated, hard working
                               As a support function to the USPIS, the          public servants whose daily efforts instill
                               Security Investigation Service Center            trust in America's postal system. How-
                               (SISC) was generally effective in sup-           ever, it takes only one incident ot theft or
                               porting USPIS's mission. However,                misconduct io potentially diminish thai
                               USPiS management could improve its               trust, Invesiigaiions of these breeches
                               background security clearance pro-               of integrity are a key component in
                               cess lu reduce its carryovers for these          maintaining the trust intt"iesystem and
                               clearances, provide formal annual and            safeguarding the Postai Service's revenue
                               refresher training, and revise procedures        and assets. With Special Agents stationed
                               fbr handling complaints of mail loss and         in more than 80 offices nationwide, thai
                               rifling.                                         mission is carried out by investigating
                                                                                internal posiai crimes involving:
                               Using a facility risk-rating model, the
                               USPIS implemented several initiatives to         • Mail theft by employees
                               identify potential vuinerabilities of Postal     • Injury compensation fraud
                               Service facilities through security reviews
                               and observations of mail processing con-         • Embezzlements andfinancialcrimes
                               ditions. In coordination wiih ihe USPiS,         • Contract fraud
                               we began assessing physical security             • Kickbacks
                               programs and plan io report on the
                               effectiveness of security in place for facili-   • Compuier crimes
                               ties, employees, customers, and mail.            • Internal affairs
                                                                                • Narcoiics
                               We are currently reviewing the Posiai
                               Service's and USPIS's security controls          Speciai Agents also investigate brib-
                               and processes to ensure ihat they                ery, extortion, conflicts of interest, and
                               are effective and follow Department              allegations against posiai executives.
                               of Homeland Security and executive               Investigative Analysts examine data and
                               guidance. Additionally we will continue          analyze trends to augment investigators'
                               reviewing new initiatives for detection and      work In the field. Analysts and Special
                               protection systems and the development,          Agents partner to find soiuiions to help
                               implementation, and coordination of              detect and prevent fraud. They operate as
                               emergency preparedness plans.                    a headquarters intelligence unit, provid-
                                                                                ing investigative analysis and research,
                                                                                reviewing investigative trends, and facili-
                                                                                tating strategic initiatives.




241 Semiannual Reportto Congress
                                                                                                                                 m



Employee Mail Theft, "No government            between tiie GIG and the USPIS. This
agency touches the public in the way           realignment involved a transfer of all                                            D
the Postal Service does. No other gov-         employee misconduct investigations,
ernment agency has the one-to-one.             including theft of mail, to the OIG. The
                                                                                                                                 m
personalized service with iis customers,       announcement presented a schedule to
                                                                                                                                 o
6 days-a-week, 52 weeks-a-year," said
Delores Killeite, Postal Sen/ice Vice
                                               complete this transfer of responsibiiity
                                               and established Seplember 1, 2006, as
                                                                                                                                 c
President and Consumer Advocate,               the start date of our responsibilities for                                        X
"Americans trust the Postal Ser-                      employee mail theft. The transition                                        H
vice to be discreet in handling                          is scheduled to be complete by                                          -<
their mail and to safeguard                                January 1, 2007,
their personal information."
For the second year in                                         To prepare for this transition
a row, Americans rated                                          and the new investigative                                        m
the Postal Service as the                                       responsibilities, our Office of                                  eo
number one agency they                                        Investigations has hired more                                      H
trust to protect their pri-                                    than 260 new investigators
vacy according to a new                                          sinceAprill, 2006. With                                         O
study by the Ponemon                                              the transfer of investiga-
Institute, LLC.                                                   tive responsibilities to the                                   <
                                                                  OIG, the USPIS reduced
The American public                                             iis complement of inspec-                                        m
expects to receive their                                     tors investigating internal mail                                    >
letters and parcels on time and                        theft. Many of the Postal Inspec-                                         o
intact. Citizens have an expectation that      tors specializing in these types of internal                                      H
their mail will noi be stolen, rified, read,   investigations have transferred to the OIG.
                                                                                                                                 <
or obstructed while in the possession of
Postal Service employees. That expecta-        A steering committee of experienced                                               H
                                               internal mail thefl specialists has been
tion and trust extends to every one of the
690 million letters that travel across the     created to chart the course for the maii
                                                                                                                                 m
country daily Whether it's a First-Class       theft mission. Speciai Agents assigned                                            0)
letter or a Priority Mail piece, Express       mail theft duties have completed a rigor-
Mail overnight sen/ice, a magazine, or a       ous training program to prepare for taking
family heirloom in Registered Mail, all are    on these new duties.
handled by the women and men of the
                                               Office of Investigations management is
Postai Senrice,
                                               taking a lead role in partnering with the
Most postal employees work diligently to       mailing industry by attending strategic
move the mail io iis proper destination.       meetings with key mailers, such as Netflix,
Unfortunately, a small number of individu-     and major financial industry associations,
als betray the public's trust. Investigating   such as the Intemational Association of
and identifying those employees who            Financial Crimes investigators, to ensure a
steal mail and seeking their prosecution is    seamless transfer of responsibilities. Addi-
now our responsibiliiy.                        tionally, these partnerships will ideniify
                                               and exchange best practices, and share
In March 2006, ihe Chairman of ihe             loss prevention strategies.
Board of Governors and ihe Postmaster
General announced their decision to
complete the investigative realignment




                                                                                                  Aprtli-Septe[nber30,20061 26
r
                                            O n September 1, Special Agents immedi-            $ 3 2 5 miilion w a s for medical paymenis to
                                            ately were called into action, as described        providers, a n d $ 5 5 9 million w a s for c o m -
                                            in the case brief below,                           pensation to claimants a n d beneficiaries.
                                                                                               Administered by t h e U.S. Department of
                                            •   First mail theft apprehension since transi-    Labor (DOL), the Office of Workers' C o m -
                                                tion ofjurisdiction. A Southwest Area          pensation Programs (OWCP) provides
                                                District Postal Manager advised us that        payment i o providers a n d compensation
                                                a Letter Carrier w a s suspected of tak-       to claimants a n d beneficiaries. T h e Postal
                                                ing government c h e c k s from his postai     Service later reimburses O W C P in a pro-
                                                unit while o n annual leave, delivering        cess k n o w n as "charge-back billing."
                                                t h e m , a n d receiving paymenis from
                                                cusiomera for expedited delivery. O n          T h e vast majority of employees o n
                                                September 1, Special Agents observed           workers' compensation receive benefits
                                                the carrier preparing for his route,            because of legitimate job-related injuries.
                                                pulling government c h e c k s from his         However, a small percentage of postal
                                                case a n d setting t h e m aside. T h e car-   employees a n d healthcare providers
                                                rier clocked out a n d left t h e building     abuse i h e system. These s c h e m e s cost
                                                on annual leave. Our Speciai Agents            i h e Postai Service millions of dollars each
                                                immediately attempted to locate those          year in compensation payments, m e d i -
                                                government c h e c k s in the mail to be       cal costs, administrative expenses, a n d
                                                delivered by the relief carrier, but were      enforcement costs.
                                                unable to find them. W h e n the suspect
                                                carrier stopped a i a local bank, Speciai      We initiate criminal invesiigaiions w h e n
                                                Agents o b s e r / e d a small bundle of       w e suspect individuals or healthcare
                                                checks in plain view o n i h e front seat      providers of defrauding i h e DOi_!s Fed-
                                                of his car..                                   eral Employees' Compensation Act
                                                                                               benefits fund. Criminal prosecutions are
                                                The carrier w a s detained a n d brought       an effective deterrent t o fraud a n d may
    INJURY COMPENSATION                         back t o the post office, A total of 3 0       permanently prevent t h e improper pay-
    FRAUD INVESTIGATIVE                         pieces of mail, including 2 6 Treasury         ment of any addiiional compensation.
    RESULTS                                     c h e c k s valued at $13,327, were c o n -    Any cases that may require administrative
                                                fiscated from i h e suspect. The carrier       aciion are referred t o the Postai Service
    ^rii 1 - September 30.2006
                                                w a s immediately placed o n emergency         and the DOL. Speciai Agents w o r k closely
    •     966 fraud investigs-                                                                 with injury compensation specialists from
                                                suspension by management.
          tions resolved                                                                       the Postal Service o n all phases of ihese
    U $S2mil!ionin                      Injury Compensation Fraud Investigative                investigations.
      compensation                      Results. As part of the largest civilian
      payments avoided                  workforce in i h e federal government,                 A n example of an innovative crime pre-
    • SanBSte                           working in a multitude of diverse jobs,                vention a p p r o a c h w a s undertaken by our
                                        posiai employees are exposed t o situa-                Denver Field Office a n d t h e Posiai Ser-
    •     9 indlctments/infor-                                                                 vice's C o l o r a d o / W y o m i n g District Injury
         matlons                        tions that c a n cause on-the-job injuries.
                                        As required by law, the Postal Sen/ice                 Compensation a n d Control Office, The
    •     6 convictions                 funds workers' compensation benefits                   team p r o d u c e d a DVD entitled "Work-
    •     34 employees                  for employees w h o sustain job-related                ers' Compensation Fraud - S o m e b o d y ' s
         fsmoved                        injuries. The monetary a n d medical                   Watching," which focused o n t h e negative
                                        benefits paid by the Postal Service to                 impact o n t h e Postai Service of fraudulent
                                        workers' compensation claimants totaled                compensation claims. T h e presentation
                                        $ 8 8 4 million in 2 0 0 6 . O i i h i s amount,       reached nearly 14,500 district employees
                                                                                               in September 2 0 0 6 .




        261 Semiannual Report to Congress
                                                                                                                                                     m
                                                                                                                                                     Q
                                                                                                                                                     33


During this reporting period, injury com-       1981, pleaded guilty lo making false
pensation fraud investigations resulted
in more than $52 million in cost savings/
                                                statements and concealing mate-
                                                rial information to obtain workers'
                                                                                                                                                     o
avoidances. Investigations by Special           compensation benefits. The plumber                                                                   CO
                                                                                                                                                     m
Agents resulted in the arrests of eight
suspects and in 125 administrative per-
                                                began receiving disability payments
                                                in September 1988 after claiming he                                                                  o
sonnel actions, including removals, and         suffered a lower-back injury in June.
letters of waming. Following are examples       Although ihe Postal Service offered
of injury compensation fraud cases inves-       him a job as a "modified office aide."
tigated by our Special Agents during ihis
reporting period.

• Doctor Defrauds OWCP of More Than                                                                                                                  <
  $100,000 in Healthcare Scam. A Hotline                                                                                                             m
  tip disclosed that a doctor was sub-                                                                                                               CO
  mitting fraudulent bills and receiving
  payment for higher-level services than
  were actually administered io posiai
                                                                                                                                                     o
  onployees (upcoding).
                                                                                                                                                     <
  The OWCP overpayment for services                                                                                                                  m
  was estimated at $105,000. Our inves-
                                                                                                                                                     >
  tigation revealed the doctor's billing
  Clerks admitted that ihe doctor threat-                                                                                                            O
  ened to harm them if they alerted law
  enforcement and others to his decep-                                                                                                               <
  tive billing practices.                                            !!• i'l' irvi;stigaliiigaiididenlilyiiii|«i             .i! Lll a seekinj
                                                their prosecution.
  We executed a federal search war-                                                                                                                  m
  rant at the doctor's offices. On August       he claimed he was unable io work                                                                     c/3
  2, 2006, a federal grand jury in the          without significant pain. From 2001
  Westem District of New York issued            through 2004, the employee com-
  a 64-count indictment of healthcare           pleted several government iorms
  fraud. The indictment charged ihat ihe        on which he denied doing any work
  doctor directed his office staff to bill at   and stated ihal his condition had not
  the highest code available without any        improved. However, investigators
  regard to the level of service he actu-       gathered evidence that contradicted
  ally provided to his patients. In addition    these claims, including sun/eillance
  to treble damages, ihe U.S. Attorney's        and photographs of the employee
  Oifice is pursuing recovery of our            doing physical labor in his yard and
  investigative costs using forfeiture pro-     community. The loss attributed to this
  cedures.                                      case is approximately $450,000. On
                                                September 11, 2006, the plumber was
• Eighteen-Year Scam by Maintenance
                                                sentenced to 12 months incarceration
  Employee Leads to a Year in Prison and
                                                and ordered to pay $242,015 in
  Restitution of More Than $242,000.
                                                restitution.
  On June 5, 2006, a Maintenance
  plumber with the Posiai Service, since




                                                                                                                   April 1 - September 30,20061 27
•
                                              Western Area Letter Carrier Found Guilty      tained an injury when a co-worker
                                             for Not Reporting Income. On June 2,           kicked a stack of maii tubs into the car-
                                             2006, a Leiter Carrier was found guilty        rier's leg. The carrier then hit his thigh
                                             on ihree counts of false statement             on a metal piece of mail processing
    tr                                       or fraud to obtain workers' benefits.          equipment. On January 26, 2006, the
                                             The former carrier injured his knee            carrier submitted a Notice of Traumatic
                                             when a dog bit him in January 2002.            Injury and Ciaim for Continuation of
                                             In November 2002, he filed a workers'          Pay/Compensation, On January 27
                                             compensation ciaim. On each form,              the carrier accepted an offer io work in
                                             the carrier indicated he had no employ-        limited-duty status (with medical
                                             ment beyond his federal job during             restrictions); however, he did not return
                                             the periods he claimed for compensa-           to work until April 3. While off duty, he
                                             tion. Although the Office of Workers'          drove himself to medical appointments
                                             Compensation Programs denied two               and played pool on a weekly basis. On
                                             claims, he received more than $3,500           April 5, Special Agents interviewed ihe
                                             in benefits for the other three claims.        carrier, who admitted to driving a vehi-
                                             Investigators found he earned money            cle and playing pool while receiving
                                             by welding and hanging Christmas               Continuation of Pay. He provided a
                                             lights while supposedly incapacitated.         sworn written statement and was sub-
                                             In August, the carrier was sentenced           sequently placed in an off-duty,
                                             to 3 years probation, fined $2,000, and        non-pay slaius. On May 23, he
                                             ordered io pay $3,596 in restitution.          received a Notice of Removal, effective
                                                                                            June 28, 2006.
                                             Supervisor in Southwest Area Removed
                                              for OWCP Fraud. On May 26, 2006, the       Embezzlements and Financial Crimes.
                                             Postal Service removed a supervisor         Employee embezzlements may involve
                                             from duty for "Unacceptable Conduct         postal employees who steal money from
                                             - Failure to Follow Instructions." The      cash drawers; sophisticated schemes
                                             former supervisor injured his wrist         involving the manipulation of postal money
                                             while on duty in August 2003 and was        orders or money order fijnds; or the
                                             placed on the periodic roll. The DOL        falsification of financial records. Financial
                                             OWCP informed the former supervisor         investigations also cover theft, misconduct,
                                             ihat OWCP payment recipients must           falsification of records, and conversion and
                                             immediately notify the DOL of any           misuse of Postal Service property.
                                             change in work status. The investiga-
                                             tion revealed the supervisor returned       When post offices experience unusual
                                             to work in July 2004. but continued         or significant shortages, our investigators
                                             to collect OWCP benefits until Sep-         employ various investigative techniques
                                             tember 2005. During an interview, the       to uncover embezzlements. Improper
                                             former supen/isor admitted he was           or lax posiai procedures are reported to
                                             noi entitled to receive this money and      management for corrective action. When
                                             intended to repay it later In April 2006,   employees are found to be responsible for
                                             the OWCP issued a Leiter of Demand          missing postal funds, they are reported to
                                             ordering him to repay $35,027               management for appropriate administra-
                                                                                         tive action. In cases that warrant criminal
                                             Capital Metro Area Carrier Removed for      prosecuiion, offenders noi only face the
                                             Off-Duty Aclivilies. On January 23,         possible loss of their jobs, but also may
                                             2006, a Leiter Carrier allegedly sus-       face jail time and court-ordered restitution.




         281 Semiannual Report to Congress
                                                                                                                                                m
                                                                                                                                                O
                                                                                                                                                33
                                                                                                                                                -<
                                                                                                                                                >
• Fifteen Northeast Area VMF Employees        Our review of financial records, as well
  Removed for Tme-Card Abuse. An exten-       as records fn^m the county Treasurer's                                                            Z
  sive investigation of time-card abuse       Office, revealed an embezzlement of                                                               o
  identified a ring of postal employees       $26,924. In addition, the former Post-
  who were abusing the timekeeping            master accepted checks for Post
                                                                                                                                                (0
                                                                                                                                                m
  system. Special Agents conducted            Office Box rentals that he did not
                                                                                                                                                o
  numerous sun/eillances and reviewed
  Time and Attendance Collection
                                              record, as he should have. One wit-
                                              ness saw the Poslmaster selling
                                                                                                                                                c
  System records to identify suspicious       stamps w/itiiout entering the transac-                                                            33
  time entries. Eventually, the investiga-    tions — approximately 20 to 30 times                                                              H
  tion determined that many employees         — from July 2003 through Janu-
  were routinely swiping one another's        ary 2004,
  time cards to record fraudulent clock
  hiis. In May 2006.15 employees vi/ere       Former BMEU Clerk Draws 30 Months in                                                              m
  removed because of these activities,        Prison tor Theft On August 8. 2006, a
  with several others receiving lesser        U.S. District Court Judge sentenced a
  administrative actions.                     former Clerk al a Westem
                                              Area Bulk Mail Entry Unit
                                                                                                                                                o
• Former Postmaster Gets Jail and $28,500     (BMEU)toa30-monlh
  Debt for Theft. On April 28, 2006, a U.S,   prison term for theft of                                                                          <
  District Court judge ordered a former       public records and theft
  Postmaster to spend 6 months in             of property used by the                                                                           m
  prison and pay restitution of $28,562       Postal Service.
  for funds he stole from his Capital
  Metro Area post office. The former          Investigators determined
  Postmaster pleaded guilty on Febru-         that the Clerk accepted
  ary 2, 2006, to tvro counts of theft of     bulk mailings from custom-
  government property. He was removed         ers withoui charging the
  from Ihe Postal Service un Janu-            customers' accounts for
  ary 23. 2006, as a result of the            postage. In all, he failed to
  investigation.                              charge for 503 mailings,
                                              totaling $449,265 in poten-
  The investigation began from an audit       tial revenue. The court
  of another Capital Metro Area post          found that the former Clerk
  office for a vending machine funds          was angry and sought to
  shortage. While determining that the        injure the Postal Service
  shortage resulted from a lack of inter-     because of his perceived       AMallHantHnrexplainslheSlanrlartlMallco';' •
  nal controls for that particular machine,   injustices involving the       process for M Diilles, Virginia. Processing ami [li.-.ii iin.iun
  investigators found that the defendant,     overtime policy and being      Center to an 01(5 Auililor and Special Ageril.
  wfio at that time was Manager of the        overlooked for a promotion.
  posl office, appeared to be living          Because ihe Clerk did not take the
  beyond his means.                           money for personal use, the BMEU
                                              was able to recover $361,807 of the
   Based on these shortages and the           uncharged postage from business
   Postmaster's financial position, we        mailers by the end of this reporting
   reviewedfinancialrecords from the          period.
   post office where the Manager now
   sen/ed as Postmaster.




                                                                                                              April l-SeptemJwf 30.20061 29
                                       Investigators executed a search war-                         sively investigate allegafions of contract
                                       rant at the Clerk's residence where                          improprieties.
                                       they found 93 flat plastic Postal Service
                                       tubs, iwo Postai Service identification                      Contraci fi-aud schemes range from
                                       badges, many Posiai Service uniforms,                        failure of contractors io meet contraci
                                       and eight Posiai Service/government                          specifications to payment of bribes to
                                       keys. Special Agents also found a doc-                       postal employees; from irregular charge-
                                       ument ihat listed more than $400,000                         backs to double and false billing. Other
                                       in postal mailings that the Clerk did not                    significant schemes uncovered include
                                       appropriately enter into ihe system,                         kickbacks, confiict of interest, and misuse
                                       OIG and USPIS investigators arrested                         of contract modifications.
                                       the Clerk the same day.
                                                                                                    During the reporting period. Special
                                    Contract Fraud. The Postal Service is                           Agents conducted 30 contract fraud
                                   presently managing more than $39.8 bii-                          investigations, resulting in two arrests,
                                   Ibn in posiai contracts. These contracts                         24 debarments and suspensions, and
                                   range from multimiiiion dollar national                          more than $6.6 million in funds returned
                                   contracts for services such as transporta-                       to the Postal Service. In addition, wo were
                                   tion networks and information technology                         involved in joint cases ihat resulted in set-
                                   infrastructures to local contracts for sup-                      tlements totaling more than S25 miilion.
                                   plies and services at individual posiai                          Examples of coniraci fraud investigations
                                   facilities. The sheer volume and ihe huge                        conducted by Special Agents during this
                                   dollar value of contracts provide oppor-                         reporting period follow.
                                   tunities for contractors and employees to
                                                                                                    •    IMPAC and Voyager Fleet Cards. \na66'\-
                                   defraud the Postal Service. The Office of
                                                                                                        tion to acquiring goods and sen/ices
                                   Invesiigaiions aids the Postal Sen/ice by
                                                                                                        through contracts, the Posiai Service
                                   assessing iis management of acquisitions
                                                                                                        uses International Merchant Purchase
                                   and contracts and stepping in io shut
                                                                                                        Authorization Cards (IMPACs) and
                                   down fraud as Special Agents aggres-
                                                                                                        Voyager Fleet Cards. The IMPAC Pro-
                                                                                                        gram processed transactions totaling
                                                                                                        approximately $384 million during this
                                                                                                        reporting period and earned the Posiai
                                                                                                        Service approximately $2,4 million in
                                                                                                        refunds. The Voyager Fleet Card
                                                                                                        Program pays for ihe fuel, oil, repair,
                                                                                                        maintenance, and washing of more
                                                                                                        ihan 220,000 Postai Sen/ice vehicles.
                                                                                                        The program processed more than
                                                                                                        $357 million during this reporting
                                                                                                        period, with documented savings and
                                                                                                        cost avoidance to the Posiai Service of
                                                                                                        almost $27 million.

                                                                                                    •   Highway Conh-actor to Pay $120,000 for
                                                                                                        Witiiholding Fuel Rebates. On June 5,
                                                                                                        2006, a Postal Service highway trans-
 Wiaconfluct by posialamployees is oiie of the many cnihes investigated by OiG Special Agents.          port contractor agreed to pay $120,000
 Criming violations a.-e presented to U,S. Attorneys lor prosBCUtion; results ol olher misconduct       under a settlement agreement with the
 invesllflatlons are oroy'itied to postal management lor admlnistralive-acHon,




301 Semiannual Report to Congress
                                                                                                                    z
                                                                                                                    m
                                                                                                                    O
                                                                                                                    33
                                                                                                                    H
                                                                                                                    -<
                                                                                                                    >
U.S. Attomey's Office in Dallas for fail-   mail transport equipment (MTE). which                                   Z
ing to pass on fuel rebates to ihe Postal   includes empty mailbags, mail trays,
Service. Of the total, $116,400 goes to     and metai Goniainws.
                                                                                                                    O
the Postal Service and $3,600 to the                                                                                0)
Department of Justice.                       Based on an anonymous Hotline alle-                                    m
                                                                                                                    O
Our daia analysis confirmed the Texas
                                            gation, our Speciai Agenls discovered
                                            thai the company was replacing previ-                                   c
contractor received nearly $80,000 in       ously billed and processed MTE with                                     33
fuel discounis between 2001 and             new barcodes and placards, thus gen-                                    H
2004, Nevertheless, the company did         erating new claims for payment and
not account for ihese discounts on fuel     causing the Postal Service to be billed
certifications 11 submitted to the Postal   twice. The Hotline complaint alleged
Service for payment. Postal Service         thai the company shift supervisors
highway transport contractors receive       were noi only aware of the double-bill-                                 m
fuel purchase rebates or discounts          ing scheme, but also helped to replace
from fuel providers via Fuel Purchase       placards and barcodes on goods for
Plans. Any discounts the contractors        which Ihe Postal Service had already
receive are io be passed back lo the        been billed. The company also made
Postal Service.                             large inventory adjustments through a
                                            software inventory and billing program                                  <
Large Poslal Service Contractor Signs       as a means of justifying shortages and
$5 Million Settlement Agreement for         missing inventory. For example, the                                     >
Contract Irregularities. On July 17 2006,
a large postal contractor signed a
                                            company would electronically enier
                                            inventory into the syslem and bill the
                                                                                                                    o
settlement agreement wiih the Postal        Postai Service without actually stock-
Service and Ihe OIG to resolve a                                                                                    <
                                            ing or restocking all of the equipment.
dispute over postal automation equip-       When it was time to balance (or adjust)
meni contracts. The contractor did          the inventory. Managers and Supervi-                                    m
not admit any wrongdoing. The Postal        sors would delete the previously added                                  C/)
Service has received $5 miilion and         adjustments, thereby enabling the
will offset the contractor's previously     company to pocket what the Postal
included legal costs from future pricing    Service paid.
agreements beginning in calendar year
2006. The primary subcontractor costs       Contractor Agrees lo Repay $63,000 for
were much lower ihan the costs that         False Vehicle Repair Claims. In a plea
the primary contractor submitted to ihe     agreement signed on June 15, 2006,
Posiai Service.                             the General Manager of a postal
                                            contraci repair facility agreed io pay
Atlanta Contractor Pays Postal Sen/lce      restitution of $63,362 for submitting
$630,000 to Avoid False Billing Suit On     false claims io the Poslal Service, On
July 14, 2006, the contractor for a         June 20. 2006. the U.S. Attorney s
posiai mail transportation equipment        Office filed a Criminal Information in
service center (MTESC) in Atlanta paid      U.S. District Court in Santa Ana, Caii-
the Postal Service $630,000 as part of      fomia, charging the General Manager
a settlement agreement. The company         with one count of false claims.
was one of four contractors the Postal
Service used to manage its nationwide       The General Manager of the contract
MTESC program. As background, an            repair facility worked in tandem with a
MTESC sorts, repairs, and distributes       former posiai accident investigator to



                                                                                      April1-September30,200EI 31
                                                                                                                    1
                                    defraud the Postal Service for personal        Agents on September 26, 2005. She
                                    financial gain. The former investigator        resigned from the Postal Service on
                                    signed a plea agreement on February            December 24, 2005.
                                     16. 2006, to pay restitution of $113,000
                                    and serve 12-18 months in prison for         Computer Crimes. As the Postal Service
                                    false claims. The former employee            information infrastructure expands and
                                    received more than $300,000 by               the number of products and services
                                    submitting more than 100 fictitious or       available over the Worid Wide Web
                                    inflated accident repair claims to ihe       increases, the agency faces increased
                                    Postal Service from the repair facility.     exposure io online risks. Unauthorized
                                     In return, he receivedfi"eerepairs of his   access into Postal Service networks and
                                    personal vehicles and kickbacks from         improper usage of computers by employ-
                                    ihe repair contractor when the Postal        ees are just two types of computer crimes
                                    Service paid the claims.                     that the Postal Service may fall victim
                                                                                 to. Training for and investigating these
                                    Secretary Pleads Guilty to Theft after       computer crimes is a top OIG priority to
                                    a Spending Spree with IMPAC Card. A          ensure the Postal Sen/ice's networks and
                                    former secretary al a Western Area           databases remain secure.
                                    Processing and Distribution Center
                                    pleaded guilty to theft of government        Our Computer Crimes Unit initiates inves-
                                    property in U.S. District Court on           tigations and provides digital forensics
                                    April 5, 2006. Her sentencing has not        support to OIG investigations. During
                                    yet been scheduled. A grocery chain          the reporting period, ihe unit grew iis
                                    investigator alerted ihe USPIS thai the      investigations support by 26 percent,
                                    postal employee might be misusing a          supporting more than 600 requests and
                                    Postal Service Intemational Merchant         313 investigations with digital forensics
                                    Purchase Authorization Card (IMPAC).         support services. Foilowing is an example
                                    The investigator said the woman used         of a computer crimes investigation:
                                    her IMPAC to purchase $11,835 in gro-
                                    cery gift cards; she ihen used ihe gift      • Postal Manager ftesigns After Special
                                    cards to purchase personal items. The          Agenls Discover Child Pornography on
                                    USPIS referred the case to us.                 his Poslal Service Compuier. The USPIS
                                                                                   told us a Manager was allegedly mis-
                                                                                   using his Posiai Service computer to
                                    Our investigation determined that
                                                                                   download pornography. Our Computer
                                    between October 1, 2004, and
                                                                                   Crimes Unit Special Agents, working
                                    September 30, 2005, the secretary
                                                                                   with the Postal Service ACE Infrastruc-
                                    misused her IMPAC to purchase more
                                                                                   ture Support Team, recovered more
                                    than $15,000 in gift cards for personal
                                                                                   than 118,000 images on the Manager's
                                    use. She concealed her theft by alter-
                                                                                   computer, many of which were porno-
                                    ing official records, inciuding forging
                                                                                   graphic and several of which appeared
                                    her supervisor's approval to requisi-
                                                                                   io be child pornography. In May 2006,
                                    tions and monthly statements, and
                                                                                   we retained the services of a certified
                                    falsifying previously approved
                                                                                   forensic pediatrician who verified ihe
                                    requisitions.
                                                                                   images were of underage children.
                                                                                   The Manager was subsequently inter-
                                    The secretary confessed to unauthor-
                                                                                   viewed and arrested by our Special
                                    ized gift card purchases, forgenes,
                                                                                   Agents on a federal arrest warrant.
                                    and alterations of account records
                                                                                   He was remanded to a Metropolitan
                                    during an interview with our Speciai




321 Semiannual Report to Congress
                                                                                                                                o

                                                                                                                                >
   Correctionai Center until August 31,
   2006, when he appeared before a U,S.
                                                corporations, not-for-profit organizations,
                                                and trade journals. We met regularly with
                                                                                                                                z
   Magistrate and was released on bond.         Finance personnel to provide feedback
                                                                                                                                D
   The case will be brought before a fed-       on our benchmarking results and to                                              CO
   eral grand jury, Foilowing his detention     discuss potential changes to the current                                        m
   hearing, the Manager resigned from           guidelines.                                                                     O
   the Postal Sen,/ice.                                                                                                         c
                                                In general, we noted the Iravel guidelines
Intemal Affairs and Executive Investigations.   instituted by the Postal Service tor its offi-
We maintain a Special inquiries Division        cers differed, in some cases, from travel
(SID) and an Intemal Affairs Division (IAD)     guidelines prescribed by the entities and
as part of ihe Office of Investigations,        sources against which we benchmarked.
SID/IAD conducts criminal and admin-            Based on our benchmarking, we deter-
istrative investigalions ot Postal Service
executives, USPIS personnel, and whis-
                                                mined ihe guidelines did not always
                                                incorporate key best practices.
                                                                                                                                m
ileblow/er reprisal investigalions. Among
ihe investigative activity for the reporting
period was the following case.
                                                We offered suggestions for the Postal
                                                Service to consider when updating ihe                                           5
                                                officers' travel guidelines, including:
• Postel Executive Investigated for Question-
                                                • prohibiting reimbursement for alcoholic                                       <
  able Business Expenses and Misconduct
  We received allegations of the miscon-          beverages,
                                                                                                                                >
  duct of a Postal Service Vice President
  during the period from January 2003
                                                • establishing specific guidelines for tip-
                                                  ping,
                                                                                                                                o
  ihrough December 2005. The inves-                                                                                             H
  iigaiion disclosed that the executive         • establishing a per diem or maximum
  engaged in a pattern of misusing                allowable amount for meals and
  Posiai Service funds. He also engaged           lodging and incidental charges when
  in intimidating, and embarrassing               traveling and/or representing the
  behavior with several female employ-            Postal Service, and
  ees and contractors. The findings were
  presented to managemeni and the               • referencing existing policies and
  Board of Governors and, according to            procedures that provide a clear and
  ihe Postal Service, the executive was           consistent framework for reimbursing
  separated from Ihe Postal Service. As           representation expenses such as busi-
  a result of the investigation, the Postal       ness meals.
  Service made changes to its officers'
  travel policies and guidelines.               The Postal Service recently updated its
                                                officers' travel guidelines to incorporate
Postal Service Officers' Travel Expense         many of our suggestions,
Guidelines. Due to Ihe preceding investi-
gation of a senior Postal Service official       Whistleblower Activity. A whistleblower is
and in response to a request from man-          an employee or a former employee who
agement, we evaluated whether Posiai            reports misconduct to people or entities
Service officers' travel guidelines were        that have the power lo take corrective
reasonable when compared to oiher               action. Generally, the misconduct is a
entities' travel policies. We reviewed          violation of law, njle, regulation, and/or
guidelines prescribed by oiher federal          a direct threat to public interest — fraud,
and local government entities, private          health, safety violations, and corruption




                                                                                                 Aprill-September 30,20061 33
                                                                                                                                4
                                   are just a few examples. The employee          Letter Carrier Charged wilh Selling Mari-
                                   must reasonably believe his or her            juana on Route. A Western Area Letter
                                   empioyer has committed a violation ot         Carrier was charged in County Circuit
                                   some iaw, rule, or regulation; testify or     Court with selling marijuana. After a
                                   commence a iegal proceeding on ihe            joint investigation between ihe OIG and
                                   legally protected matter; or refuse to        with local police, ihe postal employee
                                   violate the law, OIG whistleblower activity   was arrested for allegedly selling drugs
                                   during this period:                           from his postal truck while delivering
                                                                                 mail. The Letter Carrier remained in Jail
                               • OIG investigations initiated: 34                after failing to post a $10,000 bond.
                                                                                 He has been placed on unpaid leave
                               • Investigations closed with no tinding
                                                                                 pending the outcome of the criminal
                                 of retaliation or deferred to other adju-
                                                                                 case agalnsi him.
                                 dicative body; 15

                               • Open invesiigaiions: 17

                               • OIG found reprisal: 2

                               Narcotics. Illegal drugs in the work-
                               place can negatively impact employee
                               productivity and safety They also
                               affect employee judgment and can
                               increase stress levels, leading to acts
                               ot violence or hostility Use and sale ot
                               narcotics by employees on duty can
                               contribute to other crimes such as theft,
                               embezzlements, and fraudulent workers'
                               compensation claims.

                               Our mission in dealing with illegal drugs
                               in the workplace focuses on detection,
                               investigation, and prevention. Detection of
                               illegal drug sales, distribution, and usage
                               in ihe workplace is the first step in this
                               overall approach. Employees selling or
                               distributing illegal drugs are vigorously
                               investigated and prosecution is pursued.
                               Postal employees who are using drugs
                               ttiay be reierred to the Postal Service
                                Employee Assistance Program for treat-
                               ment.

                               Prevention remains a key long-term strat-
                               egy for providing a safe and drug-free
                               work environment for postal employees.
                               Deterring employee drug use is the
                               desired outcome for the prevention effort.
                               Following is a typical narcoiics investiga-
                               tion involving a postal employee:




341 Semiannual Reportto Congress
                                                                                                                                       "n
                                                                                                                                       m
                                                                                                                                       c
                                                                                                                                       33
FEATURE STORY                                                                                                                          m
VIRTUAL FRONT OFFICE (VFO)
To make ii easier for callers to report
concerns of possible fraud, waste, and
                                                                                                                                       i5
 misconduct affecting Postal Service
programs and operations, we established
a Virtual Front Office (VFO). All calls are
now routed to one centralized location
that provides extended hours with per-
sonnel on duty.

On April 3, 2006. the VFO began operat-
ing. M callers — whether they dial OIG
Headquarters or any of its main field
offices — are promptiy greeted by VFO                     Agent t l the Oeld.
staff iocated in the OIG's Headquarters
office in Arlington, Virginia. VFO staff are              Septemtjer 30, the VFO has referred
on duty from 7:30 a.m, lo 8 p.m., Eastern                 nearly 1,300 calls to Special Agents,
Time, Monday through Friday, except
holidays.                                                 Another VFO benefit was freeing up lim-
                                                          ited administrative support personnel In
After calls coma in, they are routed to an                the field so they can now provide needed
appropriate destination [Hotiine Program                  support to auditors and Investigators In
Analyst, a requested party or externally                  their offices.
to Ihe Postal Service's Consumer Affairs
Department, the USPIS, Headquarters                       The OIG aiso sel up a new loll-free phone
operator, and so forth).                                  number lo provide Postal Service Manag-
                                                          ers wilh direcl access to tfie VFO.
Callers on certain investigative matters
are pul in immediate contact with an OIG
investigator. From its inception through




010.-                              ii^rtpliJi r ^!,lv,l


                                                                                                      ApN11 - SepIemlKr 30,2006 \ 35
p
    U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART
                                                                                       As ot September 30, 2006




                                                                                  EvolulonHry
                                                                                   NOTotI;
                                                                                  Deiflicomenl




                                              Abbreviations
                                              AIG     Assistant Inspector General
                                              CAATS   Computer Assisted Assessment Techniques
                                              CIO     Chief Informaiion Ollicer
                                              FOIA    Freedom ol Information Act
                                              IT      Inlormation Technology
                                              HO      Headquarters




     361 Semiannual Report to Congress
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL OFFICE LOCATIONS
Tfie OIG currently has more than 1,100 employees located in more than 80 offices nationwide.


THE OIG HAS OFFICES                                   Western
IN EACH OFTHE POSTAL                                                         Great Lakes
SERVICE'S NINE AREAS.
                                                                                                                     Northeast
Albuquerque, New Mexico
Anchorage, Alaska
                               Pacific
Ariington, Virginia
Atlanta, Georgia
Baltimore, Maryland
Baton Rouge, Louisiana                                                                                       New York Metro
Bedford. Texas
Billings. Montana
Birmingham, Alabama
Boston, Massachusetts                                                                                       Capital MIetro
Buffalo, New York
Charieston, West Virginia
Chariotle, North Carolina
                                                                                                       Southeast
Chicago, Illinois
Clarksburg, Wesl Virginia
Cleveland, Ohio
Columbus. Ohio
Coppell, Texas
Covington, Kentucky
Dallas, Texas                            Miami, Rorida                         San Francisco, California
Denver, Colorado                         Milwaukee, Wisconsin                  San Jose, California
Des Moines, Iowa                         Nashville. Tennessee                  San Juan. Puerto Rico
[Detroit, Michigan                       New Haven, Connecticut                San Mateo, Caiifomia
Eagan. Minnesota                         New Orleans. Louisiana                Santa Clarita, Caiifomia
B Paso, Texas                            New York, New York                    Seattle. Washington
Gary, Indiana                            Norfolk, Virginia                     Shreveport, Louisiana
Grand Rapids, Michigan                   Oklahoma City Oklahoma                Sioux Falls, Soulh Dakota
Greensboro. North Carolina               Omaha, Nebraska                       Spokane. Washington
Harrisburg, Pennsylvania                 Orlando, Florida                      Springfield, Massachusetts
Hoboken. New Jersey                      Philadelphia, Pennsylvania            St. Louis, Missouri
Houston, Texas                           F^oenix. Arizona                      St. Paul, Minnesota
Independence, Missouri                   Pittsburgh, Pennsylvania              Syracuse, New York
Indianapolis, Indiana                    Portland, Maine                       Tallahassee, Florida
Jackson, Mississippi                     Portland, Oregon                      Tampa, Florida
Jacksonville, Florida                    Providence. Rhode Island              Trenton, New Jersey
Kansas City. Kansas                      Raleigh. North Carolina               Vancouver, Washington
Knoxville, Tennessee                     Richmond, California                  Wilmington. Delaware
Las Vegas, Nevada                        Richmond, Virginia
Ullie Rock. Arkansas                     Riverside. California
Long Island, New York                    Sacramento, California
Los Angeles, Caiifomia                   Salt Lake City. Utah
Louisville. Kentucky                     San Antonio, Texas
Memphis, Tennessee                       San Diego, California




                                                                                                   AprUI-September 30,20061 37
                                       APPENDICES
                                       The Inspector General Act of 1978 requires semiannual reports on the immediately
                                       preceding 6-month periods ending fvlarch 31 and September 30. These reports are
                                       sent to Congress and made available to the public.

                                           This report summarizes OIG activities and illustrates significant problems, abuses, and
                                           deficiencies, along with recommendations and corrective actions reiated to the admin-
                                           istration of U.S. Postal Service programs and operations during the reporting period.

                                           During the last 6 months, the Postal Sen/ice agreed with OIG recommendations that
                                           identified potential monetary tienefits of more than $359 million.

                                           The appendices on the fcliowing pages fulfill the requirements of the Act.



                                                                                                                                        Appendix A
DEFINITIONS
                                           REPORTS ISSUED TO POSTAL SERVICE MANAGEMENT
FUNDS PUT TO
                                           For the period April 1 — September 30, 2006
BETTER USE
                                           OIG audit teams conduct performance and financial audits, evaluations, and other reulews to address Ihe business of
l-unds Itiat could be used more
                                           the Postal Service, Each leam issues audll reports (ARl or management advisory reports (MA] in accordance with the
efliciently by impiemenling
                                           Identilled needs of Ihe project.
recommended acHons,

QUESTIONED COSTS
A cosl Ihal IS uniiticessary,              Summary
unreasonable, jnajpported,                 Following Is a summary, by principal area, of reporis issued to Postal Service managemeni. The following pages list each
or an alleged i/ioiation o! law,           Issued report.
regjialion, contraci, and so
forth.
                                                                                Number ot            Funds Put to     Questioned     Unsupported          Revenue
UNSUPPORTED COSTS                           lUlanagemenl Challenge           Reports Issued            Better Use          Costs           Costs           Impact
A cosl lliai 13 nut aupported
by adeqjate documentation.                  Strategic Direction                            2
Unsupported costs are
                                            Cost Control                                 205        $275,2a5,119     S75,M1,^72           388.570       51,710,923
included in Oueslioneit Costs.
                                            Revenue Generation                             1                  —                —               —         $319,014
REVENUE IMPACT
Amounts Irom revenue-                       Ci^siomer Senrice                              5
gen^atlng lunctions such ss
retail sales, rent, leases, or              Human Capital                                  3          55,521,081        5522.637          $57,536                —
lees that ivere underpaid or
                                            Integrity and Security                        24
not realized. In addition, this
category includes increased
                                            Total                                        240        5280,766,200     $78,474,109         5146,106       $2,029,937
revenue from existing functions
and generating revenue (rom
new sources.




       381 Semiannual Report to Congress
Reports with Quantifiable Potential Monetary Benefits
                                                                             Funds Put to    Questioned   Unsupported
Report Title                                                                   Better Use         Costs         Costs Revenue Impact
COST CONTROL
DELIVERY AND RETAIL
Address Managemeni System Intonnalton - threat Ukss Area
OR-AR-06-OOe. 9/30/06                                                         52,678,506            —•
Managemeni of Delivery Vehicle Ulilirailon DR-AR-06-005; 6/14/ 2006          518,075,613     54,720.875
Managemeni ol Retail Workhours m Relation to ihe Workload -
New Vork Area. Triboro Disifici DR-AR-06-006:8/9/2006                                 _        520,166       520,166
BIGINEERING
ffianaza'ODelecton Syslem DA-AR-06-006:9/30/2006                             $33,822,^      $45,916,184
RSCAL YEAR 2005 POSTAL SERVICE FINANCIAL STATEMENTS AUDIT
Sl. Louis inlormalion Technology and Accounling Service Cemer
FT-/W-06 015.4/21/2006                                                                         S45,^S        545,559
FISCAL YEAR 2006 FINANCIAL INSTALUTION AUDIT
Albert Thomas Station - Houston, Teias f F-AR-06-201; 6/30/2006                                     _             —          $18,033
Anderson Business Mail tinlry Unil - Anderson. Soulh Carolina
FF-AR-06-160:5/11/2006                                                                              —             —           $3,663
Ashland Business Mail Entry Unit - Ashland, Massachusetts
FF-AR-06-129; 4/21/2006                                                                             ^_            ^           $1,662
Beechnut Station - Houston. Texas FF AH-06-209:7/13/2006                                                                      32,199
Berryessa Slalion - San Jose, Caiilomia FF-AH-G6-228; 8/2/2006                                    $746          $746          54,196
Bethietiem South Side Station - Belhietiem, Pennsylvania
FF-AR-06-166:5/17/2006                                                                                                        $1,691

CarSss Collins Poslal Slore - Chicago. Illinois FF-AR-06-250:8/17/2006                                                       579,413

Cleburne Main Post Office - Cleburne, Texas FF-AR-OS-ieS; 5/18/2006                               5154          5154          51,242
Dallas Business Mail Enlry Unil- Dallas, Texas FF-AR-06-234; B/10/2006                                                      $141,483
Dayton Business Mail Enlry Unit - Daylon, New Jersey
FF-Aa-06-156.5/9/2006                                                                                                         52,003
Denver Downtown Stalion - Denver, Colorado Ff-AR-06-186,6/6/2006                                                  —         $186,303
Eagle Station Post Office - Bioommgton, Illinois FF-AR-06-1BO: 5/26/2005                         S2.876
E a s ^ Business Mali Entry Unit - Easley. Soulh Careilina
F-AR-06-191.6/6/2006                                                                                —             —
                                                                                                                  —         3108,759
Fort Worth Business Mail Entry Unit - Fori Worlh, Texas
FF-AR-06-123; 4/5/2006                                                                                                       891,197
Grand Crossing StaBon-Chicago, mmote FF-AR-06-133; 4/11/^0O6                                   568,431       517,583         $27,095
Hamilton - Fairleld Branch - Fairfield, Ohio FF-AR 06-245:8/16/2006                                                         3437,000
Katferd Main Post Oifice ~ Hwllord. Connecbcul FF-/W-06-230:8/9(2006                                                         $30,810
Horseheads Busfiera Mail Entry Unit - Horseneads, New Vork
FF-AR-06-12B: 4/24/2006                                                                                                       $1,521
Howell Posl Office - Howell, Michigan FF-Afi-06-27e; 9/26/06                                      $390            —           39,665
L e e ^ r g Bu^ness Mail Enlry Unit - Leestwrg, Virginia
FF-AR-06-147 4/26/2006                                                                                            —           34,947
Linda Vista Statton - San Diego, Calilornia FF-AH-06-252; 8/17/2006                              $7,147
Little Rock Main Posl Office - Little Rock, Arkansas
FF-AR-06-244; 8/15/2006                                                                          S2,314         $775
Long Prairie Business Mail Entry Unil - Long Prairie. Minnesota
FF-AR-06-17Bi 5/31/2006                                                                          52,414                     5203,650
Los Galos Man f t e l OHice - Los Galos, Calilornia Ff AR-06-136; 5/3/2006                       52,302       SI ,493          3257
Madison Business Mail Enlry Unit - Madison, Wisconsin
FF-AB-06-176; 5/23/2006                                                                                                      $43,656




                                                                                                                                       41
                                                                                                                 April t - September 30.2006139
rL      Reports with Quantifiable Potential Monetary Benefits
         Report Trtle
                                                                                             Funds Put to
                                                                                               Better Use
                                                                                                            Questioned
                                                                                                                 Costs
                                                                                                                              Unsupported
                                                                                                                                    Costs Revenue impact




r
         Mail Bar CoOing Contraci Poslal Unll - Ft, Myers, Florida
         FF-AR-06-151;5/1/2006                                                                        —               —               —           52,434
         Meadow Brook Station - Birmingham, Ai^ama FF-AR-06-169; 5(^2/2006                            —               —               —           $2,070
         Miamisburg Business Maii Enlry Unit - Miamishurg, Ohio
         FF-AR-06-143: 4/27/2006                                                                                      ,                          574,275
         Middlelon Posi Ollice - Middlelon, Wisconsin FF-AR-06-177: 5/24/2006                         ,—          ..^r^               —           55.530
         Moiliili Finance Station - Moiliiii, Hawaii FF-AR-06-261:9/1/2006                             —          •       —           —           51.056
         Oal< Brook Post Oifice - Oak Brook, Illinois FF-AR-06-280; 9/28/2006                          ^—        S257                 —           S2.665
         Oakland Business Maii Entry Unii - Oakland, California
         FF-AR-06-137; 5/11/2006                                                                                  -'—                 _          563,614
         Ontario Main Post Office -Onlario, Caiifomia FF-AR-D6-200; 7/10/2006                         —         $9,458                —           $6,698
         Overton Post Ollice - Overton, Nevada FF-AR-05-259; 8/28/2006                                —          $555               $555           S168
         Pewaukee Business Mail Enlry Unil, Pewaukee, Wisconsin
         FF-AR-06-276:9/22/2006                                                                                                                  S34,220
         Pikeville Business Maii Entry Unit - Pikeville, Kentucky
         FF-AR-06-231; 8/3/2006                                                                                                                    5759
         Pittsburg Main Post Office - Pittsburg, Caiifomia FF-AR-06-152; 5/17/2006                               $771               $771          $3,812
         Placentia Main Post Oifice-Placentia, California FF-AR-06-220:7/20/2006                               52,019                             $2,102
         Post Fails Business Maii Entry Unit- Post Falls, IdafiO'
         FF-AR-06-153:5/2/2006                                                                                                                    51,030
         RenoBusiness Maii Entry Unit-Reno, l\levada FF-AR-06-206:7/11/2006                                                                      $66,866
         River Oaks Posl Ollice - Houston, Texas FF-AR-06-215: 7/28/2006                                                                          51,134
         Rochester Posl Office - Rochester, Michigan FF-AF-0B-13G: 4/20/2006                                                                       5743
         RuiOoso Main Post Oflice - Ruidoso, New Mexico FF-AR-06-274; 9/28/2006                                                                  512,900
         Santa Ana Processing and Distnbution Center Window Unit - Santa Ana, California
         FF-AR-06-148; 5/1/2006                                                                                 $6,603                            54,914
         SouHieasletri Business Maii Enlry Unit - Soutlieastern, Pennsylvania
         FF-AR-06-126:4/3/2006                                                                                                                    $5,980
         Southlield Business Mail Enlry LJnit-Souirifieid. Miciiigan
         FF-AR-06-207:7/13/2006                                                                                                                   $6,206
         Spearfisli Business Mail Enlry Unlt-^earlish, Soulh Dakota
         FF-AR-05-155; 5/2/2006                                                                                                                   $2,923
         Spring Cify Post Oifice- Spring Cily, Pennsylvania
         FF-AR-06-226; 8/1/2006                                                                                31,085                              5201
         Tierrasanla Poslal Store - San Diego, Caiifomia FF-AR-06-272; 9/21/2006                                 $768               $768           $160
         Tigard Branch - Portland, Oregon FF-AR-06-243; 8/14/2006                                              $1,157                             $4,748
         Wanen Business Mail Entry Unil - Wanen, Michigan
         FF-AR-06-193; 6/22/2006                                                                                                                  $3,166
         NETWORK OPERATIONS PROCESSING
         Efliciency ot Carrier Seouence Barcode Sorters NO-AR-06-005:8/2/2006                  $3,688,930
         Efficiency Review of the Los Angeles, California, Worldway Airport Mail Cenier
         NO-AR-06-006; 9/12/2006                                                             $192,173,980
         SUPPLY MANAGEMENT & FACILITIES
         Controls Over Noncompelitive Conlracts Awarded lo Former Postal Service
         Employees CA-AR-Q6-002; 5/26/2006                                                                   5137,636
         Firm FlKed Price Proposal lor Ihe Singulale Scan Induciion Unil Optical Character
         Reader System Submilled by Lxktieed Martin Systems Intsgralion - Owego
         CA-CAR-06-022; 5/9/2006                                                                             1,579,508
         Parlicipalion on an Integrated Process Team for llie Flats Sequencing System
         Preproduclion Proposal Submitted by Northrop Grumman Corporation, Electronic
         Syslems Company CA-CAR-06-030; 8/22/2006                                                     —     $6,314,373




    401 Semiannual Repurt fo Congress
Reports with Quantifiable Potential Monetary Benefits
                                                                                    Funds Put to   Questioned    Unsupportett
Report Title                                                                          Better Use         Costs         Costs Revenue Impact
Report on Audit of Firm Fixed Pnce Proposal for Biohazard Detection System Dual
Collection Production Program Subrrilted by Northrop Grumman Electronic Systems
Company CA CAR-06-026; 6/26/2006                                                             —      $5,277,065
Report on Audil ol Firm Fixed Price Proposal lor Biohaiard Deiection Syslem DuS
kfmtifier Pilol Program Submitted by Morthrop Grumman Electronic Syslems
Company CA-CAR-06-024:5/26/2006                                                              —        S36.305
Repor! on Audit of Firm Fixed Pnce Revised Proposal for 150 Automated Flats
Sorting Machine-Aufomalic Induciion Phase 2 Systems, SuOmillcd by Northrop
Grumman Electronic Sysiems Company CA-CAR-06-023; 5/26/2006                                  —      55,196,545
Reporl on Audit of Verification of Fiscal Vear 2004 Claimed Common Area
Mainlenance (CAM) Expanses al Postal Service Leased Facilities al ihe Los Angeles
Terminal Annen CA-CAR-06-025; 6/9/2006                                                       —        $42,131
Settlement Proposal Under Conlract 102591 -03-0-0454 Submitted by Hasler
Incorporated CA-CAR-OB-027: 7/5/2006                                                         —      52,470,818
Sipplemenlal Report on Agreed-Upon Procedures Review ol Cendant Mobility
Services Billings lo Ihe U.S, Poslal Service Under Contraci 198525-97-B-0896
CA-CAR-06-020, 5/26/2006                                                                     —       $961,201
Universal Compuling ConnecyvityCoiiIfacl CA-AR-06-003:9/1/2006                               —       $882,350
TRANSPORTATION
Mail Transgorl Equipmeni - Tran^rtaiion ol Over-lhe-Road Containers
NL-AR-06-014,9/29/2006                                                               310,465,495    51.738,252
Mail Transport Equipment Service Cenier Network - Highway Transportation Routes
- Allanta NL-Aft-06-009:8/18/2006                                                      $801,097
Mail Transport Equipment Service Cenier Network - Higliway Iransportalion Routes
-Dallas NL-AR-06-012; 9/28/2006                                                       31,476981
Mail Transport Equipmeni Service Center Network - Highway Traiisportation Routes
-Greensboro NLAR-06-010:9/18/2006                                                     51,607,510
Surface Transporiaiion - Processing and DisIrSullon Center transportalran Roules
- Great Lakes Area NLAR-06-008:7/25/2006                                              55,289,849
Surface Transportation - Processing and Distriiulion Center Transporiaiion Roules
- Pacific Area NLAB-06 Ol 1; 9/21/2006                                                53,650,035
Vehide Managemeni - Nalimal Trailer Lease Requ^emenis - Capital Melro Area
NL-AR-06-013; 9/29/06                                                                 51,514,170     5402,478
REVENUE GENERATION
DELIVERY ANO RETAIL
Overdrawn Express Mail® Corporate Accounts DR-AR-06-007; 8/9/2006                                                                   5319,014
HUMAN CAPITAL
HUMAN CAPITAL
Poslal Service's Gnevance-ArOllration Service Centers
HM-AR-06-006.8/29/2006                                                                $5,521,081     3356,510
Pos)^ Service's Injury Compensation Program's ControversitHi and Ch^lenge
Process in Selected Areas HHfl-AR-06-004; 5/19/2005                                                  S166.127        $57,536
TOEU.                                                                               5280,766.200   $76,474,109      3146.106      32,029.937




                                                                                                                                               ^i
                                                                                                                          April 1 - September 30,2006141
            Report Listing
            Complete lisbng of all DIG Reports issued to Postal Service managemenL
            For the period ol April 1 — September 30, 2006.


            STRATEGIC DIRECTION

             EVOLUnONARV NETWORK DEVELOPMENT
            Pasadena, Caiifomia, Processing and Distribution
            Cenier Consolidation
            EN-AR-06-001;9/26/06


             NETWORK OPERATIONS PROCESSING
            Bridgeporl, Conneclicut, Processing and
            Dlsirlbuiion Facility Outgoing Mall Consolidalion
            NO-AR-06-010:9/30/06


            COST CONTROL

             AUDR- OF STATISTICAL TESTS FOR RSCAL YEAR 2006 COST AND REVENUE ANALYSIS
            Alaska District                                      Dallas Dislricl                                   Seable Dis^icl
            FF-AR-06-253; 8/17/2006                              EF-AR-06-24a; 8/24/2006                           FFAR-06-190; 6/6/2006
            Arkansas Districl                                    Greater Michigan Distnct                          Smith Jersey Dislricl
            l^F-AR-06-134: 4/12/2006                             FF-AR-06-197:6/16/2006                            FF-AR-06-216; 7/18/2006
            Capital District                                     Los Angeles Dislricl                              Tennessee Districl
            FF-AR-06-ie8; 6/2/2006                               FE-AR-06-198; 6/20/2006                           FF-AR-06-251;8/17/2006
            Cenlral Plains Distnct                               Maine Distnct
            FF-AR-06-266:9/5/2006                                FF-AR-06-247; 8/15/2006
            Columbus District                                    Nevada-Sierra District
            FF-AR-06-170; 5/17/2006                              FF-AR-06-192; 6/6/2006


             DELIVERY AND RFTAIL
            Address Managemeni Syslem Inlffmalion                Delivery and Retail Standard Operating            Delivery and Relaii StandarO Operaling
            - Greal Lakes Area                                   Procedures - Norftieast Area                      Procedures - Western Area
            DR-AR-06-008; 9/30/06                                W-MA-06-004,9/8/2006                              DR-MA-06-003; 9/27/06
            Delivery and Retail Slandard Opefalii>g              Delivery and Relaii Standard Opeiattig            Managemeni of Delivery vehicle UffizaBon
            Procedures - Eastern Area                            Procedures - Pacific Area                         DR-AR-06-005; 6/14/2006
            DR-MA-06-006:9/28/06                                 OR-MA-06-002; 9/27/06                             Managemeni of Retail Workhours in Relation lo
            Delivery and Retail Slandard Operaling               Delivery and Relaii Slandard Operaling            the Workload - New York Area, Triboro Disincl
            Procedures- Great Lakes Area                         Procedures - Soulheasl Area                       DR-AR-06-006:8/9/2006
            DR-MA-06-008; 9/29/06                                DR-M A 06-007; 9/25/2006
            Delivery and Relaii Standard Operating               Delivery and Relaii Standard Operaling
            procedures - New Vork Melro Area                     Procedures - Southwest Area
            DR-MA-06-005; 9/28/06                                Dfl-MA-06-009; 9/30/06




            6ioh;;rari:i Deieclion System                        Technology Acqulsilion Managemeni Process
            DA-AR-06-006;9/30/06                                 Guide - Phases 3 and 4. Production,
                                                                 Deploymeni, and Maintenance
                                                                 DA-WP-06-002; 9/22/06


             FINANCIAL STATEMENT
            lrdepenflenlBe[»rt on Withholdfigs and               Sl. LOUIS intormation Technokigy and Accounling
            Contributions lor Health Benelils, Life Insurance,   Service Cenier
            Reiiremenl, and EmpioyeB Headcounl Dala              FT-AR-06-015; 4/21/2006
            FT-AR-06-017; 9/26/06




42 I Semiannual Report to Congress
 FISCAL YEAR 2005 FINANCIAL INSTALUTION AUDIT
Eastern Area Financial Installation Audit           Posl Olfices, Stations, and Branches
FF-AR-06-142:4/25/2006                              FF-AR-06-196; 6/20/2006
New Vork Metro Area Financial Installation Audit    Self-Servicc and Automated Postal Centers
FF-AR-06-140; 4/24/2006                             FF-AR-06-127; 4/7/2006
Northeast Area Financial Insiallatlon Audit
FF-AR-06-141, 4/24/2006


 FISCAL YEAR 2006 FINANCIAL INSTALLATION AUDIT
Albert Thomas Stalion - Houston, Texas              Clinlon Business Mail Enlry Unit                    Glendive Posl Oflice - Glendive, Montana
FF-AR-06-2D1:6/30/2006                              FF-AR-06-150; 5/1/2006                              FF-AR-06-187:6/6/2006
Anderson Business Mail Enlry Unit-                  Columbus Business Mall Ertiy Urrit-                 Grand Crossing Station - Chicago, Illinois
Anderson. South Carolina                            Coiumbus, Indiana                                   FF-AR-06-133; 4/11/2006
FF-AR-06-160; 5/11/2006                             FF-AR-06-184; 5/31/2006                             Greenfield Business Mall Entry u n i l -
Ann Arbor Posl Ollice - Ann Arbor, Michigan         Coronado Slalion Sell-Service Poslal Center -       Greenfield, Massachusetts
FF-AR-06-260:8/29/2006                              El Paso, Texas                                      FF-AR-06-151;5/19/2006
Aplos Business Mall Entry Unit- Aptos, Caiifomia    FF-AR-06-268:9/26/06                                Greenville Business Mail Entry Unit -
FF-AR-06-267; 9/11/2006                             Dallas Business Mail Enlry Unit - Dallas. Texas     Greenville, North Carolina
                                                    FF-AR-05-234; 8/10/2006                             FF-AR-06-222; 7/25/2006
Archbold Business Mail Entry Unit-
Arch bold. Ohio                                     Dallas Mam Post Oflice - Dallas, Texas              Greenville BusinessMail Enlry Unit-
FF-AR-06-163; 5/11/2006                             FF-AR-06-205; 7/13/2006                             Greenville, South Carolina
Ashbum Automated Postal Center—                     Dania Posl Ofllce - Dania, Flonda                   FF-AR-06-236 8/7/2006
Ash hum. Virginia                                   FF-AR-06-154:5/2/2006                               Hamburg Business Mail Entry Unit-
FF-Afi-06-181:5/31/2006                             Daylon Business Mail Entry Unit -                   Hamburg, New Vork
Ashland Business Maii Enlry Unll -                  Daylon, New Jersey                                  FF-AR-06-146; 4/28/2006
Asliland. Massachusells                             FF-AR-06-156; 5/9/2006                              Hamiilon - Fairfield Branch- Fairfield, Ohio
FF-AR-06-129; 4/21/2006                             Denver Downtown Siation - Denver Colorado           FF-AR-06-245:8/16/2006
Aurora Post Office-Aurora, Missouri                 FF-AR-05-186; 6/6/2006                              Harrison Posl Oifice - Harrison, Maine
FF-AR-06-224; 7/24/2006                             Downtown Slalion - Fiagstali, Arizona               FF-AR-06-232:8/3/2006
Bailie Creek Main Posl Office -                     FF-AR-06-132; 4/5/2006                              Hartford Main Posl Ollice - Harllord, Connecticut
Battle Creek, Michigan                              Eagle Station Post Oifice - Bloomington, Illinois   FF-AR-06-230; 8/9/2006
FF-AR-06-270,9/28/2006                              FF-AR-06-180; 5/26/2006                             Hiiliard Posl Ofllce-Hilliard, Ohio
Beechnut Slalion - Houston, Texas                   Easley Business Mall Enlry Lnit-                    FF-AR-06-239; 8/15/2006
FF-AR-06-209; 7/13/2006                             E as ley, Soulh Carolina                            HIngham Business Mail Enlry Unil -
Berryessa Slaton - San Jose, California             FF-AR-06-l91;6/5/2006                               HIngham, Massachusetts
FF-AR-06-228;8/2/2006                               Farmingdale Business Mail Entry Unit                FF-AR-06-159; 5/11/2006
Bettilehem Lehigh University Contract Postal Unit   - Farmingdale, New Vork                             Horseheads Business Mail Entry Lnit-
- Bettilehem, Pennsylvania                          FF-AR-06-246; 8/15/2006                             Horseheads, New York
FF-AR-06-195; 6/13/2006                             Famiiiigdale Main Post Office -                     FF-AR-05-128; 4/24/2006
Bethlehem South Side Slalion-                       Farniingdale, New York                              Howell Post Oftice - Howell. Michigan
Bethlehem, Pennsylvania                             FF-AR-06-235:8/7/2006                               FF-AR-06-27e; 9/28/2006
FF-AR-06-166.5/17/2006                              Fayetteville Main Office Winflow-                   Hun lock Creek Posl Ollice -
Big Bend Posl Office - Big Bend, Wisconsin          Fayelteviiie, North Carolina                        Hun lock Creek, Pennsylvania
FF-AR-06-262:8/30/2006                              FF-AR-06-125; 4/3/2006                              FF-AR-06-249:8/16/2006
Canon Cily Posl Office - Canon City, Colorado       Fleming Island Branch - Orange Park, Florida        Huntsville Permit Office - HunIsvilie, Texas
FF-AR-06-183:5/30/2006                              FF-AR-06-179; 5/24/2006                             FF-AR-06-275; 9/26/2006
Cardiss Collins Posiai Store - Chicago, Illinois    Foodlown Coniraci Postal Unil #375 -                Huntsville Wesl Siation - Hunisviile, Alabama
FF-AR-06-250; 8/17/2006                             Brooklyn, New York                                  FF-AR-06-164; 5/16/2006
                                                    FF-AR-06-144,5/9/2006                               Hyde Park Posl Ollice - Hyde Park. New Vork
Carlton Post Oifice - Cadton. Oregon
FF-AR-06-204; 7/17/2006                             Fort Dodge Business Mail Entry Unit-                FF-AR-06-257; 8/23/2006
Cheyenne Soulhside Contraci Posiai Unit             Fort Dodge, Iowa                                    Idaho Falls Business Mail Entry Unit -
- Cheyenne, Wyoming                                 FF-AR-06-135; 4/14/2006                             Idaho Falls, Idaho
FF-AR-06-221; 7/25/2006                             Fort Worlh Business Mail Entry Unif-                FF-AR-06-223; 7/25/2006
Cily Stop Contract Postal Unil-                     Fort Worth, Te>;as                                  Jackson Business Mail Enlry Unil -
Las Vegas. Nevada                                   FF-AR-06-123; 4/5/2006                              Jackson, Mississippi
FF-AR-06-214; 7/31/2006                             Gaylord Business Mail Enlry Unil -                  FF-AR-06-167; 5/16/2006
Clebume Main Posl Office - Clebume, Teias           Gaylord, Michigan
FF-AR-06-168; 5/18/2006                             FF-AR-06-208; 7/12/2006




                                                                                                                                                April 1 - September 30,2006
•ir
lb
               FISCAL YEAR 2006 FINANCIAL INSTALLATION AUDR
              Johnston Post Oflice Automated Postal Center -     MBndenhall Post Office -                             Post Falls Business Mail Entry Unit -
              Johnston. Rhode Island                             Mendenhali, Pennsylvania                             Posl Falls, Idaho
              FF-AR-Oe-218:8/3/2006                              FF-AR-06-263:8/31/2006                               FF-AR-06-153:5/2/2006
              Junction City Business Mail Entry Unit- Junction   MiamisOurg Business Mail Enlry Unit                  Radlord University Coniraci Posiai Unil -
              City, Kansas                                       - Miamisburg, Ohio                                   Radlord, Virginia
              FF-AH-06-242,8/15/2006                             FF-AR-D6-143; 4/27/2006                              FF-AR-06-199:6/20/2006
              Lake Zurich Posl Oifice - Lake Zurich, Illinois    Middle Island Mam Post Office,                       Reno Business Mall Eniry Unil - Reno, Nevada
              FF-AR-06-131; 4/6/2006                             Middle Island, New York                              FF-AR-06-206; 7/11/2006
              Lamesa Coniraci Poslal Unll - Enid, O W ^ m a      FF-AR-06-265; 9/8/2006                               Rexburg Business Mail Enlry Unll-
              FF-AR-06-158; 5/8/2006                             Middlelon Posl Oifice- Middlelon, Wisconsin          Rexburg, Idaho
              Lansing Business Mall Entry Unil -                 F-AR-06-177.5/24/2006                                FFAR06-212;//14/2O06
              Lansing. Michigan                                  Millburn Business Mail Entry Unit-                   RiegelsviliB Post Otfice -
              FF-AR-06-217, 7/19/2006                            Millburn, New Jersey                                 Riegelsvllle. Pennsylvania
                                                                 FF-AR-06-162,5/12/2006                               FF-AR 06-273:9/25/06
              Leesburg Business Mail Eniry Unit -
              Leesburg, Virginia                                 Minneapolis Coniraci Postal UnS #112 -               River Oaks Posl Ollice - Houston, Texas
              FF-AR-06-147,4/26/2006                             Minneapolis. Minnesota                               FF-AB-06-215:7/28/2006
                                                                 FF-Wl-06-255: B/18/2006
              Liwrtyville Business Mall En^y Unil -                                                                   Rociiesler Posl Ollice - Rocheaer. Michigan
              Libertyvllle. Illinois                             Moiliili Finance Slalion - MDiliill, Hawaii          FF-AR-06-138:4/20/2006
              FF-AR-06-139:4/26/2006                             FF-AR-06-261:9/1/2006                                Ruidoso Main Posl Oifice - RuiOoso, New Mexico
              Linda Vista Station - San Diego, Calilornia        Monldalr Siation - Denver, Colorado                  FF-AR-06-274; 9/28/06
              FF-AR 06-252; 8/17/2006                            FF-AR-06-264:9/5/2006                                Salisbury Business Mail Entry Unit-
              Linda's Hallmark Conlract Postal Unil -            Mosinee Business Mall Entry Unil -                   Salisbury, Maryland
              Phoenix, ArlTona                                   Mosinee, Wisconsin                                   FF-AR-06-202.6/28/2006
              FF-AR-06-15/: 5/4/2006                             FF-Afl-Q6-165; 5/15/2006                             Sam Rayburn Coniraci Postal Unit-
              Little Rock Mam Posi Office -                      Mount Juliet Business M^l Entry Unll -               Jasper, fenas
              Lll lie Rock. Arkansas                             MounI Juliet, Tennessee                              FF-AR-06-238;a/B/2006
              FF-AR'06-244; y/15/2006                            FF-AR-06-172; 5/17/2006                              Santa Ana Processing and Distribution Center
              Loehmann's Pla;a - Rochester, New Yort*            Natchez Business Mail Entry Uhlt-                    Window Unit - Santa Ana, California
              FF-Afi-06-124; 4/3/2006                            Naichez, Mississippi                                 FF-AR-06-I4a; 5/1/2006
              Long Prairie Business Mall Entry Unit -            FF-AB-06-130:4/6/2006                                Schenectady Main Posl Otfice -
              Long Prairie, Minnesota                            Neptune Stalion - Brooklyn, New York                 Scheneclady. New vork
              FF-AB-06-178.5/31/2006                             FF-AR-06-185,6/1/2006                                F-AR-06-149; 4/27/2006
              Los Galos Mam Post Ollice -                        New Haven Business Mail Entry Unit -                 Sebago Lake Coniraci Poslal Unil -
              Los Galos. California                              New Haven. Connecticut                               StanOish. Maine
              FF-AR-06-136; 5/3/2006                             FF-AR-06-25e; 8/24/2006                              FF-AR-06-240; B/9/2006
              Madison Business Mail Entry U n l l -              Oak Brook Posl Oflice - Oak Brook. Illinois          Shade Communily Posl Oifice - Shade, Ohio
              Madison, Wisconsin                                 FF-AR-06-280:9/28/2006                               F-Afl-06-173; 5/22/2006
              FF-AR-06-176; 5/23/2006                            Oakland Business Mai Enlry Unil -                    Shasla Lake Main Post Office -
              Mail Bar Coding Coniraci Poslal Unil -             Oakland. Caliiornia                                  Shasta Lake. Caiilomia
              R. Myers, Florida                                  FF-AR-06-137.5/11/2006                               FF-AR 06 237:8/9/2006
              R=-AR-06-151; 5/1/2006                             Omana Business Mail Enlry Unit-                      Stiawnee Mam Posl OMice - 9iawnee, Oklahoma
              Manatiawkin Business Mail Entry Unit -             Omaha, Nebraska                                      FF-AR-06-271:9/18/2006
              Mananawkin. Newi Jersey                            FF-AR-06-210; 7/13/2006                              Soultieaslern Business Mail E n ^ Unit -
              FF-AR-06-219, 7/26/2006                            Onlario Main Posl Ofllce - Onlano, Calilornia        Soulheasiefn, Pennsylvania
              Mandan Posl Oifice - Mandan, Norih D ^ t a         FF-AR-06-200; 7/10/2006                              FF-AR-06-126:4/3/2006
              FFAR-06-241;8/10/2Q06                              Overton Posl Office - Overton, Nevada                Southlield Business Mail Entry Unit -
              Manitowoc Business Mall Enlry Unit-                FF-AR-06-259:8/28/2006                               South Held, Michigan
              Man itowoc, Wisconsin                              Pad<way Finance Stalion - Bronx, New Vork            FF-AR-06-207: 7/13/2006
              FF-AR-06-182; 5/26/2006                            FF-AR-D6-145; 5/9/2006                               Spearlish Business Mail Entry Unit-
              Marshall Contraci Poslal Unit-                     Pewaukee Business Mail Eniry Unit -                  Spear fish. South Dakota
              Marshall. Ivlinnesola                              Pewaukee, Wisconsin                                  FF-AR-06-155; 5/2/2006
              FF-AR-06-171; 5/17/2006                            FF-AR-06-276; 9/22/06                                Spring Cily Post Ollice -
              MarshfieldBusiness Mall Entry Unit -               Pikeville Business Mail Entry Unit -                 Spring City, Pennsylvania
              Marsh Held, Wisconsin                              Pikeville, Kentucky                                  FF-AR-06-226; 6/1/2006
              FF-AR-06-229; 8/2/2006                             FF-AR-06-231; B/3/2006                               Squirrel Hill Station - Pittsburgh, Pennsylvania
              Maxlon Posl Ollice - Maxlon. North Carolina        Pittsburg Main Posl Ollice - Pittsburg, California   FF-AR-06-213; 7/17/2006
              FF-AR-06-194;6/15/2006                             FF-AR-06-152; 5/17/2006                              Sievens Point Business Mail Entry Unit -
              Meadow Brook Slalion - Birmingham, Alabama                                                              Stevens Point, Wisconsin
                                                                 Piacenlia Main Post Ottice - Placentia, Caiifomia
              FF-AR-06-169; 5/22/2006                            FF-AR-06-220; 7/20/20(ffi                            FF-AR-06-233; 8/7/2006




  441 Semiannual Report lo Congress
 FISCAL YEAR 2006 FINANCIAL INSTALLATION AUDIT

Slrongslown Communily Posi Oifice -                lufbotville Posl Offtce - Turbotville, Pennsylvania   Wesislde Siation Post Office -
Slrongstown. Pennsylvania                          FF-AR-06-269:9/13/2006                                Alexandria, Louisiana
FF-AR-06-189; 6/6/2006                             Turlock Mam Post Office -Turlock, Calilornia          FF-AR-06-277 9/28/2006
Tampa Mam Office Window Unit - Tampa, Flonda       FFAR06-174: 5/19/2006                                 Winthrop Post Oflk;e - Winihrop, Maine
FF-AR-06-211:7/17/2006                             Warren Business Mail Enlry Unit-                      FF-AR-06-254; 8/21/2006
Tell Ciiy Post Ollice - Tell City Indiana          Warren, Michigan                                      Vod( Business Mall Entry Unit -
FF-AR-06-227: 8/1/2006                             FF-AR-08-193:6/22/2006                                Vodt, Pennsylvania
Tierrasanla Poslal Slore - San Diego, California   Wesl Hoxbury Posl Office /^tomaieO Poslal             FF-AR-06-203,6/30/2006
FF-AR-06-272, 9/21/2006                            Center - Wesl Roxbury, Massachusells                  Yuma Business Mail Enlry Unit - Vuma, Arizona
Tigaid Branch - PorllanO. Oregwi                   FF-AR-06-256: 8/23/2006                               FF-AR06-225:7/31/2006
FF-An-06-243:8/14/2006


 INFORMATION SYSTEMS
System Software Controls at Ihe Eagan.
Minnesota and San Mateo. California intormaiKin
Technology and Service Centers
IS-AH-06-016,9/11/2006




Inlernalional Mail Air Transporlaton Rales         While Paper - USPS Cost Burdens
MS-WP-06-002; 6/29/2006                            MS-WP 06 001; 6/22/2006


 NETWORK OPERATIONS PROCESSING
Capping Reporl on Ihe Efficiency of flu:           EfliciBucy of Carrier Sequence Barcode Soriers        Fiicilily Ulllizalion al llie Los Angeles, California,
International Records Unils Operations             NO-AR-06-005; 8/2/2006                                Woildway Airport Mail Cenier
NO-AR-06-008; 9/27/2006                                                                                  NO-AR-06-007:9/22/2006
                                                   Efficiency Review ol Ihe Los Angeles, Calilornia,
Cotor-Coding ol Slandard Mail at ine Porlland,     Worldway Airport Mail Center
Oregon, Processing and Dlsirlbuiion Cenier         NO-AR-06-006; 9/12/2006
NO-MA-06-003.9/26/2006


 SUPPLY MANAGEMENT & FAClLmES
Accounling Sysiem Inlemal ConMs o( Siemens         Parlicipalion on an Iniegraied Process Team           Report on Audll ol VenlicalKHi ol Fiscal Year
Energy and Aulomalion, Incorporated, Postal        for the Flats Sequenang Syslem Pr^oducton             2004 Claimed Common Area Maintenance
Automallon Division                                Proposal Submitted by Northrop Gmmman                 (CAM) Expenses al Postal Senncc Leased
CA-CAR-06-029; 8/4/2006                            Corporaton. Eleclronic Syslems Company                Facilities al the Los Angeles Tenninal Annex
Audil ol Siemens Energy and Aulomawn               CA-CAR-06-030; 8/22/2006                              CA-CAR 06-025; 6/9/2006
Incorporaled. Postal Aulomalkm. Forward Pricing    Poslal Service New Cixi^niclion Lifecycle             Report on Quality System at FKl Logistex
Bate Proposal tar Fiscal Years 2006 Through        CA-MA-06-003:8/31/2006                                CA-CAR-06-028. 7/21/2006
2010                                               PreawarO Survey ol Accountng System al                SelllemenI Proposal Under Coniraci 102591-03-
CA-CAR-06-021; 5/16/2006                           Francolyp-Posialia, Incwporaled                       00454 Submitted by Hasler Incorporaled
Coniractor Purchasing Syslem Review of Siemens     CA-CAR-06-031:9/11/2006                               CA-CAR-06-027. 7/5/2006
Logisikis and Assembly Sysiems incorporated,       Report on Audil of Firm Fixed Price Proposal          Supplemental Report on Agreed-upon
PiBlal Aulomalion                                  lor Bk)hazan] Detection Sysiem Dual Colleciion        Procedures Review ol CendanI Mobiliiy Services
CA-CAR-06-019; 4/20/2006                           Produclkjn Program SuOmilled bi' Norttirop            Biiimgs lo the Uniied Slales Postal Service Under
Controls Over Noncompetitive Contracts Awarded     Grumman Eleclronic Sysiems Company                    Coniraci l9e525-97-B-0696
10 Formar Postal Service Employees                 CA-CAR-06-026; 6/26/2006                              CACAR-06-020, 5/26/2006
CA-AR-06-002:5/26/2006                             Report on Audll ol Fim Fixed Price Proposal           Technology Acquisilion Management Process
Delenninalion ol a Decremeni Faclor for Use        for Biohazard Detection Syslem Dual Identifier        Guide - Phase 2. Devekipmenl
on Norlhrop Gmmman Corporation. Electronic         Piloi Program Submilled by Northrop Grumman           CA-WP-06-001:6/29/2006
Syslems, Eleclronic Syslems Company Uniied         Eleclronic Sysiems Canpany                            Universal Compuling Connectivily Contract
Slales Poslal Service Sutxx)n^acls                 CA-CAfi-06-024; 5/26/2006                             CA-AR 06-003,9/1/2006
CA-CAR-06-018:4/4/2006                             Repoil on Audit ol Firm Fixed Price Revised
Firm Fixed Pnce Proposal tor ihe Slngulaie         Proposal lor 150 Aulomaied Flais Soriir^
Scan Induclwn Unit Opiical Character Reader        Machine-Aiilomalic Induction Phase 2 Syslems,
System Submilled by Lockheed Marlln Systems        Submitted by Northrop Grumman Bectionic
Ihlegralion-Owego                                  Systems Company
CA-CAR-06-022; 5/9/2006                            CA-CAR-05-023; 5/26/2006




                                                                                                                                                   J^ril 1 - September 30,2006145
            TRANSPORTATION
           Mail Transport Equipmeni - Tran^orlafcn of        Mail Tran^ort Equipmeni SCTvice Ctaiier             Surlace Transportalion - Processing and
           Over-the-Road Ccmtainers                          Network - Highway Transportation Roules -           Distribution Cenier Trai^xjrtaton Routes -
           NL-AR-06-014; 9/29/2006                           GreensOtKO                                          Pacific Area
                                                             NL-AR-06-010:9/18/2006                              NL AR-06-011:9/21/2006
           Mail Transport Equfiment Service Cenier
           Nelworii - Highway Transportabon Roules -         Ivlail Transport Equipmeni Service Cenier           Vehicle Management - National Trailer Lease
           ADanla                                            Network - Proposed Change lo Ouality Inspection     Requiremenis - Capital Melro Area
           NL-AR06-009; 8/18/2006                            and Payment Aulhorizalion Conirols                  NL-AR-06-013; 9/29/2006
           Mail Transport Equipment Service Cenier           NL-AR-06-007; 7/20/2006
           Network - l-lighway Transportation Roules -       Surtace Transportation - Processing and
                                                             Dislribulion Center Transportation Roules - Great
           NLAR-06-012; 9/28/2006                            Lakes Area
                                                             NL-AR-06-008:7/25/2006


           REVENUE GENERATION

            DELIVERY AND RETAIL
           Overdrawn Express Mail' Corporate Accouhls
           DR-AR-06-007, 8/9/2006


           CUSTOMER SERVICE

            DELIVERV AND RETAIL
           Las Cruces, New Mexrco Delayed Mail
           DR-MA-06-001; 6/5/2006




           Strategic Alignmeni ol Engineering Programs
           DA-AR-06-005; 9/22/2006




           Poslal Service's Use of Ghosl Numbers
           MS-MA-06-002; 9/19/2006


            NETWORK OPERATIONS PROCESSING
           Color Coding ol Standard Ma:ia' llie Mayaicl L,   Mail Processing internal Conirols al ihe Dallas
           Sellers Processing and Dislnhulioii Cenier        Bulk Mail Cenier
           NO-MA-06-004; 9/28/2006                           NO-AR-06-009:9/26/2006


           HUMAN CAPFTAL

            HUMAN CAPfTAL
           PostaJ Service's Grievance-Arbilralion Service    Poslal Servtoe's Injury Compensaion Program s       Poslal Service's Schedule Awards Program in tlw
           Centers                                           Conlioversion and Challenge Process in Selected     New Yo* Metro Area - Report 1
           HM-AR-06-006:8/29/2006                            Areas                                               HM-AR-06-007; 9/29/2006
                                                             HM-AR-06-004:5/19/2006


           ItfTEGRITY AND SECURITY

            FINANCIAL STATEMENT
           Postal Service Otficers' Travel Expense
           Guidelines
           FT-WP-06-001; 9/29/2006




461 Semiannual Reportto Congress
 HURRICANES KATRINA MJD RITA
Hurricane Katrina - Effectiveness of the Postal      Poslal Inspeciion Service's Procuremenl               Postal Service Emergency Preparedness lor
Service Transportation and Logistics Network         Transactions Relaied lo Hurricane Kalrina             Hurricanes Katrina and Rlia
NL-AR-06-006; 6/29/2006                              Response, Recovery, and Reconstruct Efforts           SA-AR-05-007:8/3/2006
                                                     SA-AR-06-004; 5/30/2006
Poslal Inspection Service Emergency                                                                        Poslal Service's Replacemeni and Repair of
Preparedness tor Hurricane Kalrina                   Poslal Service Aclions to Locate and Track            Facilities Affected by Hurricane Katrina
SA-AR-06-005; 5/5/2006                               Employees After Hurricane Kalrina                     FA-MA-06-001; 5/26/2006
                                                     HM-AR-06-005:8/28/2005


 INFORMATION SYSTEMS
Certificate Aulhority Public Key Infrastructure      Inlormalion Securily Assurance Process                Security AssessmenlAudit of Telephone
Compliance at the Infonnation Technology and         iS-AR-06-009; 5/4/2006                                Lines and Modems (PhoneSweep) at Eagan,
Accounling Service Cenier In Eagan, Minnesota        Intormalion Syslem Access Controls at the             Minriesola, Host Compuling Services
IS-AR-06-015:9/1/2006                                Eagan, Minnesota, and San Mateo, California,          lS-CS-06-002; 6/9/2006
Change of Address - Application Control Review       informafion Technology and Accounling Service         Security Vulnerabilily Assessmeni of Legacy
IE-AR-06-013:7/17/2006                               Centers                                               Applications at the Eagan Hosl Compuling
                                                     IS-AR-06-Q18; 9/27/2006                               Services, Eagan, Minnesota
Enterprise Paymeni Switch Solution Phase 1:
                                                                                                           lS-CS-06-004:8/30/2006
Reouiremenls and Design                              Informafion Syslem Policy and Procedure
IS-AR-06-017; 9/27/2006                              Conirols                                              Status of Follow-up Audll of Certificale Authority
Follow-up at tbe Engineering Research and            IS-AR-06-014; 8/T4/2006                               Public Key infrastmclure Compliance
Development Cenier, Merrifield, Virginia             Router and Switch Controls at Selected Posiai         lS-AR-06-012;6/8/2006
IS-AR-06-010; 5/5/2006                               Service Informaiion Technology Cenfisrs               Technical Report - Security Assessmeni Audi! of
Human Capital Enlerprise SAP Human Resources         IS-AR-06-011; 5/25/2006                               Telephone Lines and Modems (PhoneSweep) at
Pro|ecl - Syslem Controls Over Roles and                                                                   San Mateo, California, Hosl Compuling Services
Separation ol Dufies                                                                                       lS-CS-06-003; 8/18/2006
lS-AR-06-008; 5/2/2006


 OVERSIGHT OF INVESTIGATIVE ACTlVTriES
Follow-up Review ol tlie Poslal inspecfion Service   Poslal Inspection Service's Securily Invesligations
Consumer Fraud Awareness Fund                        Service Center
SA-AR-06-006:6/15/2006                               SA-AR-06-002:4/20/2006
Poslal Inspection Service Noncompetilive             Ouaiilative Assessmeni Review ol the Posiai
Contract Process                                     Inspection Service's Chicago Division
SA-AR-06-003:5/2/2006                                OAR-OA-06-005:6/14/2006




                                                                                                                                                 April 1 - September 30, 2006147
                                                                                                                                             Appendix B

 FINDINGS OF QUESTIONED COSTS
 For the petiod April 1 — September 30,2006
 Questioned Cost: A cost that Is unnecessary, unreasonable, unsupported, or an alleged violalion of law, regulation, or contract.




  Office of Inspector General
  As required Oy the IG Aci, the lollowing pages show the total number of audit reports and the lotal dollar value of quesfioned cosis in audit reports.
                                                                                                                                                   Unsupported Costs
                                                                                                                                                         Inclurled In
  DescrlptJon                                                                      Number of Reports                 Questioned Cosis                Questioner! Costs
  Reports for which no managemeni decision was made at the
  beginning of ihe reporting period                                                                  21                    $66,873,895                     $4,719,637
  Reports repuiring managemeni decision that were issued during the
  reporting period                                                                                   36                    $76,474,109                       5146,106



  TOTAL                                                                                              57                   $143,348,004                     $4,BK,743



  Reports for which a management decision was made during the
  reporting period (l-i-ll)                                                                          36                    $71,823,174                       5146,248

     (I) DollarValueofdlsallowedcost                                                                                       $16,555,705                       $100,689

     (li) Dollarvalueofcostnotdisallowed                                                                                   $55,271,469                        $45,559
  Reports tot which no managemeni decision was made by the end of
  the reporting period. Negotiations are ongoing.                                                    21                    $71,519,830                     $4,719,495
  Reports for which no management decision was made within six
  months of issuance (See Note 1 for a list ol individual reports)                                    •4                      $675,721                             —-.
  Reports for which no management decision was made wilhin one
  year of issuance (See Note 2 for a list of individual reports)                                      §                    $58,657,940                     $4,718,940




  Mole 1 - Reports for which no management decision was made witliin six months of issuance:
                                                                                                                                         Unsupported Costs Included
  Subiect                                                             Report Number           Report Date        Questioned Costs               in Questioned Costs
  Audil of Terminalion for Convenience Settlement Proposal
  Under Conlract Number 3AAERD-03-P-6080 Submitted t ^
  Govemmeni Telecommunications, Incorporated                          CA-CAR-06-003             11/8/2005                 $547,466
  Audltof Fiscal Year 2001 Incurred Cost of
  New Breed Corporations                                              CA-CAR-06-006             12/9/2X5                     $7,767
  Audll of Fiscal Year 2002 Incuned Cosi of
  New Breed Corporations                                              CA-CAR-06-007             12/9/2005                  $89,576
  /^ditof Firm Fixed Price Proposal (Of the Ventilation
  aid RIbaiion System at Morgan Station Submitted by
  Accu-Sort Systems, Incorporated                                     CA-CAR-06-015             3/29/2006                  $30,912



  TOTAL                                                                                                                   $675,721




48 I Semiannual Report to Congress
                                                                                                                Appendix B

Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                      Unsupported Costs
                                                                                                                             Included in
Subject                                                           Report Number    Report Date   Questioned Costs      Questioned Costs


Contract Audil - Bell and Howell Mail and Messaging
Technotogies                                                      CA-CAR-03-(X)2   10/16/2002           5343,759
ContractAudit - D. L Kaufman, Incorporaled                        CA-CAfl-03-011    2/11/2003         54.028,935

AuOit of Termination for Convenience Price Adjustir)ent Claim
Submitted by Abcon Associates. Incorporated                       CA-CAfl-04-022    £'16/2004          54.478,385            52,702.465

Vehde Management - Delivery Vehicles - Buy versus Lease            NL-AR-04-005     9/3ar2004        $42,751,032

Vehtele Management - Trailer Rerjuirements - Northeast Area        NL-AR-04-[K)6    9/30/2004          52,016,475            $2,016,475
Audit ot Frm Fixed Price Proposal Submitted Dy international
Business Machines. Global Services, Business Consulting
Services - Federal, Under Pnjposal Number APC 035R3               CA-CW-O5-017       5/3/2005         $3,127,088
Audit of Equitable Price Adiustmenl Claim Submitted by Advanced
Constnjctlon Technologies, Ltd. Under Conlract Number 362575-
OO-B-0399                                                         CA-CAR-05-020     6/15/2005         $1,780,367
Audit of Finn Fixed Price Proposal Submitted by Northrop
Grumman Corporation, Electronic Systems Company, Under
Solicilalion Number 3BMHRD-03-25541                               CA-CAR-05-021     6/27/2005           $131,899



TOML                                                                                                 S5S,6S7,940             54,718,940




                                                                                                                    April 1 - September 30,2006149
                                                                                                                                                     J
                                                                                                                                Appendix C

 RECOMMENDATIONS THAT FUNDS BE PUT TO BEHER USE
 For the period April 1 — Sep!ember3Q, 2006
 Funds Put to Better Use; Funds that could be used more efhcienlly by implemenbng recommended acbons.
 As required by the IG Aot, Ihls page shows the lotal number of audit report and the total dollar value of recommendations for funds that management can
 put lo better use.




  Office of Inspector General
  Description                                                                                        Number of Reports                       Dollar Value

  Reports for which no management decision was made al Ihe beginning of Ihe reporting period                                                 $67,376,226

  Reports issued during the reporting period                                                                          13                   $280,766,200



  TOTAL
                                                                                                                     n                     $343,142,426



  Reports for whldi a management decision was made during tne report period                                           14                   $282,776,620

     (i) Value of recommendations agreed to by managemeni                                                                                  $245,109,450

     (ii) Value of recommendations that were not agreed to by management                                                                    537,667,170

  Reports for which no managemeni decision was made by the end of tie reporting period.                                i                    $65,365,806
  Reports for which no managemeni decision was made within six monltis of issuance
  (See Note 1 tor a list of individual reports)                                                                        1                      $2,235,812
  Reports for which no management decision was made within one year of issuance
  (See Nole 2 for a list of individual reports)                                                                        9                    $56,094,743




  Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                     Recommend Funds
  Subjei^                                                                                      Report Number         Report Daie       Put to Better Use

  Surface Transportation - Bulk Maii Cenier Highway Transportation Routes -Western Area         NL-AR-06-001           2/14/2006             $2,235,812



   TOTAL                                                                                                                                     K,235,812




  Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                                     Recommend Funds
  Subiect                                                                                      Report Number         Report Date       Put to Better Use

  Vehicle Management-Trailer Requiremenis-Northeast Area                                        NL-AR-04-006           9,'30/2004            $7,300,150

  Vehicle Managemeni - Delivery vehicles - Buy versus Lease                                     NL-AR-04-005           9/30/2004            $40,296,954

  Bulk Mail Cenier Highway Transportation Roules - Pacific Area                                 NL-AR-05-012           9/21/2005             $3,123,562

  Delivery Vehicle Utilization - General Sen/ices AdminIstratim Leased Vehldes                  DR-AR-05-01B           9/29/2005             $5,374,077

  TOTAL                                                                                                                                     M6,094,743




501 Semiannual Reportto Congress
                                                                                                                                     Appendix D
Reports with Significant Recommendations Pending Corrective Actions
For the period through September 30, 2006
As required by the IG Aci, the tollowing pages include a list of each audit report for which no management decision has been made hy the end of the
reporting period.


 Office of Inspector General
                       Number of
   Issue Dale       Recommendations       Report Title                                                                                  Report Number
                                          Efficiency of Work Pertormed by Business Mail Entry Clerks In Ihe San Francisco Business
   9/25/2003                 2            Mail Enlry Unit                                                                                AO-AR-03-002
   9/29/2005                 3            DellveryVehicie Utilizafion-General Sen/icesAdminislration Leased Vehicles                     DR-AR-05-01B
   8/09/2006                 1            Overdrawn Express Mail Corporate Accounts                                                      DR-AR-06-007
   9/25/2006                 @            Delivery and Retail Standard Operating Procedures - Souttieast Area                            DR-MA-06-007
   9/29/2006                 3            Delivery and Relaii Standard Operating Procedures - Great Lakes Area                           DR-MA-06-008
   9/26/2006                 3            Pasadena, California, Processing and Distribution Cenier Consolidation                         EM-AR-06-OOi
   12/22/2005                 1           IntelllgenlMail Data Acquisifion System                                                        DA-AR-06-D01
   2/10/2006                 2            Rat Remoie Encoding System for Automated Flat Sorting Machine 100                              DA-AR-06-003
   9/30/2006                 2            Biohazard Defection Syslem                                                                     DA-AR-06-006
   12/30/2005                3            IMPAC Card Purchases - Chicago District                                                        FF-AR-06-D38
                                          Fiscal Vear 2002 Postel Service Rnancial Statemente Audit-St. Louis Information
   1/30/2003                 1            Technology and Accounting Service Center                                                       FT-AR-03-D08

   8/21/2X3                 s.            Propriety of Postal Service Utility Payments                                                   FT-AR-03-011
                                          Fiscal Year 2004 Postal Service Rnaicial Statements Audit- Eagan information Technology
   1/10/2005                  1           and Accounling Sen/ice Center                                                                  FT-Afl-05-005
                                          Fiscal Year 20O4 Postal Service Financial Staiemenis Audit - St, Louis Information
   3/15/2005                 ;1           Technology and Accounting Service Center                                                       FT-AR-05-009

   3/22/2006                 1            J.T Weeker (Chicago) International Setvice Cenier- Inbound International Mail                  F-AR-06-013
                                          Fiscal Year 2005 Poslal Sen/ice Financial Statements Audit - St, Louis Information
   4/21/2006                2
                                          Technology and Accounting Service Center                                                       FT-AR-06-015
   3/31/2O06                 1            Postel Sen/Ice's Share of Healih Insurance Premiums for Retired Employees                      R-AR-06-016
   9/30/2002                 2            /Associate Supen/tsor Program In Bie Great Lakes Area                                          LH--AH-02-005
   7/22/2005                 5            Complaints Regarding Personnel Issues In the Caribbean District                                HM-AR-05-009
                                          Aciion Tt^en By Paciiic Area Regarding Ccmplainte of a Hostile Work Environment in the
   6/11/2005.                             Sacramento District                                                                            HM-AR-05-010
                                          Postel Service's Injury Compensation Programs' Controversion and Challenge Process In
   5/19/2005                  3           Selected Areas                                                                                 HM-W-06-004
   a/29/2006                  9           Postal Sen/ice's Grievance-Art)ltrafion Senrice Centers                                        HM-AR-06-006
   9/29/2006                 5            Postel Service's Schedule Awards Program in the New Yori( Metro Area - Report I                HM-AR-06-007
   2/22/2002                : & •
                                          Review of the Facilities Management Sysiem for Windows                                         iS-AR-02-003
   3/30/2003                 6            General Controls at the Engineering Research and Development Center, Meniileld, Virginia        lS-AR-03-008
   9/30/2004                  1           Postal Service's Business Partner Connectivity                                                 IS-AR-04-014
   10/25/2004                 1           Reports Distribution                                                                           IS-AR-05-001
   4/18/2005                  3           Security Controls m Voice Systems - Louisiana Disbict                                          IS~AR-05-O07
   6/03/2005                  4           Security Assessment Summary Report                                                             IS--AR-05-010
    9/30/2005                •1.,         Nalional Voice Services - Savings Opportunities                                                IS-AR-05-016




                                                                                                                                                            ^1
                                                                                                                                      April 1 - September 30,2006151
                      Number ol
    Issue Date     Recommendabons   Report Title                                                                                  Report Number

     2/10/2005                      SecurityVulnerabiliivAssessment and Audit ofAutomated Postel Center Systems                   IS-AR-06-003
                                    Human Capitel Enterprise SAP Human Resources Project - System Conffols Over Roles and
     5/02/2006             1.       Separation ol Dufies                                                                          IS-AR-06-008
     5/05/2006             1        Follow up at the Engineering Research and Development Center, Merrifield, Virginia            iS-AR-06-010
     5/25/2006             3        Router and Switch Confmis at Selected Posiai Sen/ice Inlormation Technology Centers           IS-AR-06-011
     9/27/2006             2        Enterprise Paymeni Switch Solution Phase 1: Requirements and Design                           IS-AR-06-017
                                    Information System Access Conbols at tie Eagan, Minnesota, and San Mateo, Caiifomia,
     9/27/2006             2
                                    Information Technology and Accounting Service Centers                                         IS-AR-06-018
    12/23/2005             2
                                    Security Over Sensilive Cuslomer Date on Automated Postel Cenier Kiosks                       lS-MA-06-00!
     7/09/2002             3        Review of eBusiness Agreements                                                                EM-AR-02-012
     3/31/2004
                                    Efficiency ot Ihe Oakland International Service Facility and the Regatta Facility             NO-AR-04-007
     9/24/2004
                                    Efficiency oflhe New York Intemational Sen/ce Center                                          NO-AR-04-009
     3/30/2005
                                    Efficiency Review of the Akron, Ohio, Processing and Distribuilon Center                      NO-AR-05-009
     6/17/2005
                                    Efficiency ot the Los Angeles international Sen/ice Center                                    NO-AR-05-011
     2/22/2006
                                    Efficiency Review of the Washington Bulk Mail Center                                          NO-AR-06-003
     9/12/2006                      Efficiency Review of the Los Angeles, Calilornia, Worldway Airport Mail Center                NO-AR-06-006
     6/13/2003                      Postal Inspection Sen/ice Tracking of Investigative Woriihours and Activity                   SA-AR-03-003
     4/21/2004                      Postal inspection Sen/ice's Postel Police Officers                                            SA-AR-04-001
     9/30/2004            iB        Vehicle Management- Delivery Vehicles - Buy versus Lease                   •                  NL-AR-04-005
     9/30/2004             :2'      Vehicle Management- Trailer Requiremente - Northeast/Vea                                      NL-AR-04-006

                                    Mail Transport Equipment Sen/ice Cenier Network - Nehwork Realignment - Pittsburgh,
                                    Detroit Cleveland. Audil Note: S33 million monetary benelil Identilled during audil and not
     1/25/2005             2        reported In trie SARC                                                                         NL-AR-05-001
     9/21/2005             1        Bulk M^l Center Highway Transportation Roules-Pacific/\rea                                    NL-AR-05-012
     9/28/2005             •3       Commercial Air Network Operations                                                             NL-AR-05-015
    04/21/2005             2        Vehicle Management - National Trailer Lease - Unresolved Audit Recommendallims                NL-MA-05-001
     2/14/2006             3        Surtace Transportation - Bulk Mail Center Highvray Transportation Routes-Western Area         NL-AR-06-001
     3/10/2006             1,       Intemnodal Rail and Highway Transportation Behiveen the Great Lakes and Western Areas         NL-AR-06-002
                                    Mall Transport Eguipment Service Center Networit - Highway Transportalion Routes
     3/28/2006             t:       -Memphis                                                                                      NL-AR-06-005
                                    Hurricane Kalrina -The Effectiveness of the Poslal Sen/Ice Transportation and Logistics
     6/29/2006            :2        Nelworti                                                                                      NL-AR-06-006
                                    Mail Transport Eguipment Service Center Network - Proposed Criange to Ouality Inspection
     7/20/2006             2        and f^ymenlAuBiorizalion Controls                                                             NL-AR-06-007
                                    Surface Transportation - Processing and Disbibution Cenier Transportation Routes - Great
     7/25/2006             3        Lakes Area                                                                                    NL-AR-06-aoa
                                    Mail Transport Equipment Service Center Nehivork - Highway Transportation Routes
     8/18/2006            't        -Atlante                                                                                      NL-/ffl-06-009
                                    Mail Transport Equipment Service Center Network - Highway Transportatkin Routes
     9/18/2006            -.g.      - Greensboro                                                                                  NL-AH-06-010
                                    Surface Transportetion-Processing and DIsthbuhon Center Transportalion Routes-Paciiic
     9/21/2006            t         Area                                                                                          NL-Afi-06-011

     9/28/2006            •1        Maii Tran^ofl Equipment Sen/ice Center Network - Highvray Transportation Routes - Dallas      NL-AR-06-012

     9/29/2006             4        Vehicle Managemeni - National Trailer Lease Requirements - Capitel Metro Area                 NL-AR-06-013

    09/29/2006             1        Mall Transport Equipment - Transportation of Over the Road Conteiners                         NL-AR-06-Oi 4


521 Semiannual Reportto Congress
                                                                                                                               Appendix E

SIGNIFICANT MANAGEMENT DECISIONS IN AUDIT RESOLUTION
For Ihe period April 1 — September 30, 2006
As required by the 16 Act, this appendix discusses information concernihg any significant management decision with which the inspector General disagrees
and which is currenty In audil resolution.

Office of Inspector General

Tbe OIG has no significant management decisions in audit resolution as of September 30,2006,




                                                                                                                               Appendix F

INVESTIGATIVE STATISTICS^
For the period April 1 — September 30, 2006



                                                                      Misconduct                                     Employee Mail
                                                                        Statistics                                  Theft Statistics"
 investigations completed                                                           3.799                                               438

 /tfrests/lnlormabon/lndidments                                                                                                         323
 ConvWions/Prelrial Drversions^                                                                                                         •m
 Adminisbatve actions                                                               1,775                                               404
 Costawidance                                                               557,527,822

 Fines, resUhjIJan, and recoveries                                          376,488,294

     Amount to Poslal Service'                                              $12,410,819


 ' Statistics include joint investigations with the Postal Inspechon Service and other law enforcement agencies,
 ' Convictions reported In this frame may be related lo arrests made in prior reporiing periods.
 ' Amount included in Fines, Restitution, and Recoveries.
 • Cases worked solely by the Postal Inspection Service.




                                                                                                                                  April 1 - September 30.2006153
                                                                                                                                          Appendix G
 SUMMARY OF U.S. POSTAL INSPECTION SERVICE ACTIONS UNDER 39 U.S.C. § 3013
  For the period April 1 — September 30, 2006
 The Postal Reorganization Act requires the Postmaster General te hirnish informadon, on a semiannual basis, on the investigative activities of the Postal Service by
 theU,S, Postal Inspection Sen/ice. With passage of the Deceptive Mail Prevention and Enforcement Act in December l999.thePostei Sen/Ice's reporting obligations
 were changed. TTie Act requires the Postel Service to submit ite semiannual report on investigative activities to Uie Office of Inspeclor General rather than to the
 Board of Governors, expands fhe subject matter Biat must be reported, and revises the reporting schedule to coordinate with the OIG Stuniannusl Reixirt !o (ingress.
 The Informaiion in the report inclufles actions directed at combating crimes involving the mail; coste and expenditijres devoted lo Postel Service investiga^ve
 activities: use of subpoena power; and any additional mlonnation the DIG may require.
 The lollowing intormation summarizes the adminislralive anfljudiciai actions initialeo and resolved during Hie reporting period. These actions Include the
 Issuance of cease and desist orders direcled to mailers, actions to Intercept paymente fraudulently induced, and orders seeking lo intercept fraudulent mailings.



                                                                                                ^Ise
                                                                          Consent       Representetion        Cease & Desist
  Type ol Scheme                           Con^laints Rled            Agreements                Order                Orders
  Advance fee                                               1                   —                    —                     —
  Contests/sweepstakes                                      1                   _-                   —                     —
  Coupon fraud                                              1                    1                                          1
   False billings                                          s                    @                     4                    11
   Intemet auction                                          7                   ?                     2                     6
   Lotteries (foreign and domestic)                         1.                  —                    _                     —
   Medical                                                 3-                   —                    —                     —
   Merchandise:
    failure lo furnish                                      1                    1                  —                      —
    failure to pay                                         •t                    S                   1                      3
  Miscellaneous                                             7                    6                  —                       4
  Telemarketing                                            3,                    3                   1                      3
  Work at home                                             16                   16                   3                     16
  TOTAL                                                   51                    43                   11                    44




  Investigative Expenses'                                                              Subpoenas
  Type                                                     Dollar Amowit               Cases            Date Issued             Scheme
  Personnel                                                 $158,473,256               06-004           6/8/2006                Work al home
  Nonpersonnel                                                   33,289,758
                                                                                       06-005           7/18/2006               Failure to render
  TOTAL                                                     $191,763,014
                                                                                       06-006           7/18/2006               Failure lo render
  Capital Obligations                                            $8,272,142
                                                                                       06-007           3/16/2006               Solicitation in guise of invoics

                                                                                       06-008           9/5/200G                Failure to pay
 ' Numbers have tieen nonnallzed lo wttecl the transfer ol the Intoimation
 Tectinology Division lo the festal Service's Chief Technology Ottice
 organization.
                                                                                       Oflier Administrative Actions
                                                                                       Administrative Action Requests
                                                                                       Temporary Restraining Orders Requested                                      i
                                                                                      Temporary Restraining Orders issued                                          r
                                                                                       Cases Using Direct Purchase Authority
                                                                                       Civil Penalties (Section 3012) Imposed                             $25,000
                                                                                      Test Purchases
                                                                                      Withholding Mail Orders Issued                                           18
                                                                                      Voluntary Discontinuances                                                16


541 Semiannual Report to Congress
                                                                                                                                        Appendix H

CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
For the period April l — September 30,2006
This appendix lists the 31 Congressional and Board of Governors Inquiries the OIG closed during this reporting period. We reviewed biese Inquiries to help
idenlily systemic issues and lo determine the need for future Postal Service-wide audits.




 Inspector General
Requestor                         Allegation/Concern                                    Our Major Findings                                            Closure Date
Senator, Iowa                     Communicaiion lo Postel Inspectors of decision lo    /Addressed concerns in a meeting with law enforcement            5/23/2006
                                  transfer jurisdiction to OIG lor employee crimes and employee organization,
                                  misconducttelheOlG,
Representetive, ^Wsconsin         Request for Inspector General testimony fram Ste       Inspector General Williams appeared and provided               9/27/2006
                                  House Judiciary Committee,                            testimony.



 Investigations
Requestor                         AllegaUon/Concem                                      Our Major Rndings                                             Closure Date
Senator, Virginia                 Kickbacks and contracting irregularibes at a V^icle   We investigated but did not substantiate charges,                 4/7/2006
                                  Maintenance Facility.                                 Reported tjndings to Postel Service distiici
                                                                                        management, resulting in several personnel acbons.
Senator, filebraslta'             Supen/isor Improperiy acceded and dlKemfnated         Our investigation revealed mainrecordssyslem at                   4/6/2CXJ6
                                  employee background Investigation informafion.        facility was protected adequately, bul secondary syslem
                                                                                        was not. We lorwarded recommended improvemenK
                                                                                        to management.
Senator Washington                Contractor fraudulently failed to provide supplies    We reviewed, but did not subsianilaie allegaiion. We            8/30/2006
                                  and services as agreed in a Portland, Oregon,         found &ie coniractor pertormed the work managemeni
                                  facility.                                             requested.
 Representative, Texas            Mmagement directed Letter Caniers to Insert           Our review did not substentiate retellatkin charge.             6/21 /2006
                                  direcl mail materials Into the pages of circulars:    Refen-ed direct mail issue lo Postel Service for
                                  whistleblower refaliatim lor reporting,               evaluation.
 Representative, California       /yiegahons ol racial, cultural, sexual harassment,    We conducled an informal review and reported findings            4/26/2006
                                  and threats at facility.                              io the requestor.
 Representefive, South Carolina   Rural Route Catrter stole a dog.                      We Investigaled, found no evidence to back this charge.          5/10/2006

 Representetive, Illinois         Employee used Poslal Service equipment and fime       Our investigatim found activities were non-partisan and           8/7/2006
                                  lo conduct political business.                        did not violate Hatch Act; use of postel equipment and
                                                                                        time reiened to management.
 Representative, Illinois         Employee used Postel Service equipment and time       OIG investigation found acbviiles were non-partisan and           B/8^006
                                  to conduct political business.                        did not violate Hateh Act; use ol postal equipment and
                                                                                        bme referred lo management.
 Representetive, Nevada           Whistleblower retaliation.                            We were unable to subsianilaie that the employee                 9/15/2006
                                                                                        made a timely, protected communication.
 Representetive, Caiifomia        Hiding and ^ s S reporting of delayed mall; hostile   We Iound delayed mall was properly documenled In                 7/12/2006
                                  wori< environment in Los Angeles DisiricL             tile Mall Condition Reporting System. Managemeni
                                                                                        surveyed Ihe wori<place climate and recommended
                                                                                        management action.
 Representative, California       Hiding and false reporting of delayed mail: hostile   Wefounddelayed mail was properly documenled in                   7/12/2006
                                  work environment in Los Angeles District, (Second     Bie Mail Condition Reporting System. Management
                                  /Mlegaikin/Concem,)                                   surveyed the woritplace climate and recommended
                                                                                        management action.
 Representetive, Oklahoma         Allegalions or misconduct and possible                We conducted hwo invesiigatimis, finding a prima facie           6/28/2006




                                                                                                                                                                               a
                                  whistleblower reprisal.                               case of reprisal for vi/hislleblowlns.




                                                                                                                                              April 1 - September 30.2006155
  Audits
                                   AllegattDn/Concem                                     Cur Rndings                                                Closure Date
  Representative, New Mexico       Substantial delays in mall delivery In Las Cruces,    We addressed this as part of the Management Advisory          6/9/2006
                                   New Mexico.                                           - Las Cruces, New Mexico, Delayed Mail, issued
                                                                                         6/05/05.
  Representative, California       Lack ofopenhess and community Involvement in          These issues were addressed in the Audit Report              8/16/2006
                                   Postel Service process for crmducting Area Mail       - Pasadena, Calilornia, Processing and Distribution
                                   Processing sfody of the Pasadena PSDC,                Center Consolidation, issued 9/26/06.
  Representative, Oklahoma         Incumtffini contiacior denied an opportunity to bio   We reviewed and Iound tee Poslal Service pn^eriy               4/7/2006
                                   on coniraci renewal.                                  followed conbacting rules.
  Governors                        Mall process skewed to expedite Extemal Rrsl-         Our review found Biese operalions did not favor              6/28/2006
                                   Oass Mail and enhance pertormance scores at the       collection mail.
                                   Jacksonville, Florida, PSDC,
  Representative, New Ywk          Review oi ihe current change of address (COAl         We provided a response based on an audit addressing           8/3/2006
                                   program operated by the Postel Service.               date inlegrily in the COA process. We found exisling
                                                                                         contiols are sufficient to ensure overall Integrity, but
                                                                                         recommended improvementsregardingacceptance and
                                                                                         notification of PS Form 3575, Ollicial Mall Forwarding
                                                                                         Change of Address Order
  Mayor, St. Petersburg, Florida   Requested OIG audit of the Area Mailing Processing    We have several site-specific consolidation reviews           8/9/2006
                                   (AMP) Survey for tlie St, Petersburg P&DC,            undenivay, bul cannot commit to reviewing SL
                                                                                         Petersburg-to-Tampa consolidation in 2007,
  Representetive. Virgin Islands   Mail processing and delivery concems sent to the      We will coordinale audit wort( with GAC in the               8/17/2006
                                   GAO with copy to the 016.                             upcoming fiscal year.



  Mission Support
                                   AHegabDn/Concem                                       Our Rndings                                                Closure Date
  Senator, Virginia                Stetus of consllteent application tor employment      Provided siatus report only,                                 5/26/2006
                                   with the DIG.



  General Counsel
  Requestor                        AllegaUon/CDnceni                                     Our Findings                                               Closure Date

  Senator, Virginia                Allegations of intimidation, harassment, and          We did not subsianiiate allegations and noted                5/25/2006
                                   violalion of privacy by managemeni,                   jurisdictional issues with otherfoderalagencies.
  Senator, California              Maildelivery issues at Ihe SanteBariiara Posl         Officials at the Postel Service Govemment Relations            4/5/2006
                                   Office and East Beach Facility.                       Ofiice asserted jurisdiction.
  Senator, Texas                   Special agenl made a defamatory communication         Wetoundthe communicaiion was in the nature of a               4/11/2006
                                   and illegally disclosed personal Information during   question, not a defamatory stetement and part of proper
                                   course of investigation.                              investigalive work.
  Representative, California       Requested investigatiiHi into constiteent's 1997      We found malter was addressed outskle OIG jurisdiction       8/11/2006
                                   removal from Postel Service.                          (through arbiti^tionj and records were no longer
                                                                                         avaiiabte, limiting mir further review.
  Senator, Minnesote               Delays in processing an individual workers'           We determined officials a! the local Postal Service            4/6/2006
                                   compensation claim.                                   Human Resource office are assisting.
  Representetive, Florida          Insufficiency of OIG investigation of allegations
                                   agalnsta postal supervisor                            Review determined no additional work was necessarv.          4/12/2006

  Representetive, New York         Stetus of records from a wort<er's compensation
                                   invesllgadon.                                         Our FOIA Office processed documents for release.             6/15/2006

  Senator Texas                    Supervisor directed a conbactor use a pretext lo
                                                                                         We found ttiat managemeni addressed ihe issue                8/30/2006
                                   gain Information atwut an employee's medical
                                   leave.                                                consistent with postal policy.




561 Semiannual Report lo Congress
General Counsel
Requestor                       Allegation/Concefn                                     Our Findings                                                   Closure Date

Senator, Minnesota              Follow-up questionsregardingdelay ot workers'          We did not identify cause of delay, but reviewed                  7/5/2006
                                compensation daim.                                     Northland Disbict Office processing record.
Representative, N e w t o *     Supervisors failed to respond fully lo harassment by We were unable io proceed, due to inexact recall of                9/15/2006
                                co-workers.                                          participants and destruction of materials In question.
Senalor Texas                  Special Agent made a defamatory communication           Wetoundthe communication was in the natere of                      6/8/2006
                               and illegally dlsdosed personal informahon during       a quesiion, not a defamatory stetement, and part of
                               course of investigalion.                                proper investigative wort;.
Senator, Georgia               Requested investigation into consStuent's 1997          We found matter was addressed outside OIG jurisdiction            8/11/2006
                               removal from Postel Service.                            (Ihrough artiitialion) and records were no Imger
                                                                                       available, llmidng our furttiar review.
RepresenlativB, Florida        Union requested review of incidente at Central          Officials in the USPIS asserted jurisdiction,                    7/26/2006
                                Florida facility.
Senator, Texas                 Assault by supervisor at Port,                          We received this correspondence In error                         7/18/2006

Senator, Texas                  Mall tampering and flieft of an individual's mail.     We notified the delivery supervisor, who agreed lo                8/8/2006
                                                                                       address the concems. The USPIS previously reviewed
                                                                                       and did nol substentiate a similar complaint.
Representetive, Cal Horn a     Racial discrimination at a Los/tegeles facility;        We found no evidence of racial discrimination and                  8/3/2006
                               suggestion for Manager selection.                       reierred Uie selection issue to the Postel Sen/Ice's
                                                                                       Govemment Relations Oifice.
Senator, Mississippi            Inquiry on behalf of constituent.                      No action (outeide stetutory authority),                         8/11 /2006

Representetive, Pennsylvania    Inquiry on behalf of constituent.                      No action (outside stetetory authority).                         8/11 /2006

Senator, Mississippi            Inquiry on behalf of constituent.                      No action (outside sialutery aulhority),                         8/29/2005




Referrals
Requestor                       Allegatlon/Concem                                      Refen'od To                                                    Closure Date
Representative, New York        Unfair working condlhons and harassment at a           The Equal Employment Opportunity Commission OIG.                 4/20/2006
                                postel facility.
Stete Representetive, Oklahoma Mall content Issues.                                    The Prratel Sen/ice Government Relations Office,                 5/23/2006

Representetive, Missouri        Raudulent transfer of periodical postege privileges,   The Postel Sen/ice Government Relations Office,                  5/23/2006

Senator West Virginia           Postel Service employmeni.                             The Posiai Service Govemment Relations Office.                   7/16/2006

Senator, Virginia               Cash sent by mail neverreachedaddressee, but           The Posiai in^ecfion Sen/ice,                                     8/3/2006
                                sender received damaged envelope from the
                                undeliverable mail department.
Representetive, California      Postel ServKe employment                               The Postel Service Govemment Relations Office.                   8/17/2006

Representetive, Califamia       Labor contract violations.                             The Postel Sen/Ice Government Relations Office.                  8/31/2006




                                                                                                                                              April 1 - September 30,2006157
                                                                                        SUPPLEMENTAL INFORMATION

                      FREEDOM OF INFORMATION ACT

                      The Freedom of Information Act (FOIA) Office for the Postal Service Office of Inspeclor General operates independenby of, but
                      frequently coordinates with, ils counterparis at the Postal Service and Posiai Inspeclion Service. The FOIA Office receives requeste
                      for records from the public, the media, and Postal Service employees. The Freedom of Information Aci, according to the Department
                      of Justice, 'generally provides that any person has a right, enforceable in court, to obiain access to federal agency records, except to
                      ihe exlent trial such records (or porlions of them) are protected fi-om public disclosure by one of nine exemptions,"

                      Activities
                      For the period April 1 - September 30,2006


                       Reriuests                                                                                                        Numberof Requests

                       Carryover Irom prtor period                                                                                                          7

                       Received during period

                       Totel on hand during Hw period                                                                                                    •m

                       OIG actions                                                                                                      Number ol Requests

                       Processed during tfie period                                                                                                      11B

                           Requests released In full                                                                                                      m
                           Requests partially granted                                                                                                     38.
                           Requeste not granted                                                                                                           n
                           Requests refened to another agency                                                                                             29.
                           No records                                                                                                                     •ffi.



                           Not proper FOIA requests

                           Wittidrawn



                       Balance                                                                                                          Number of Requeste

                       Balance at the end of the period (pending)                                                                                          12



                       Processing Days                                                                                                      Numberof Days

                       Median processing days to respond to a FOIA request                                                                                15




581 Semiannual Report lo Congress
WORKPLACE ENVIRONMENT

The Woriiplace Environment Team receives referrals Involving workplace environment and operational issues trom multiple sources,
including the HoUine, Congress, the Board of Governors (BOG), and management. Complaints reviewed by Ihe leam Include sexual
harassment; discnmination: harassment and Inilmidalion; nepolism; maildellveryandprocessing:and workplace safety Issues,
The team's role was expanded to Include Internal complainis received from OIG employees. This process provides OIG employees
another avenue lo reporl their concerns, in addition to Equal Employment Opportunity avenues. During this reporting period, Ihere
was a 90 percent increase In the number ol referrals received compared lo trie last reporiing period.



Activities
For trie period April 1 - September 30, 2006


 Referrals                                                                                                                  Total

Carryover Irom prior period                                                                                                    57

Complaints received trom Hotline

Congressional/BOG/Postel Service Manaaament                                                                                     7
Intemal                                                                                                                         4
Other                                                                                                                           2
Total on band during this period
                                                                                                                             m
Workplace Environment Actions                                                                                               Total

Complaints closed during trie period                                                                                         431

   Referred to Posiai Service management                                                                                     114.

   Referred lo OIG Otfice ot Invesligations                                                                                   3S

   Refened to OIG Oifice of Audit                                                                                               1

   Summary of findings reported to Congress/BOG/Postei Service fVtenagement                                                     a
   Conducled limited inquiry into allegations/issues and referred to database

   Refened to database tor statistical analysis and possible systemic reviews                                                134

Referrals pending at the end ol the period                                                                                     36




                                                                                                                                    April 1 - September 30,2006159
p
                                        GLOSSARY
                                        Advance fee scheme - Obteining fees purporting te               Increase overall effectiveness, and Improve consistency
                                        secure buyers or obtain loans.                                  of service.
                                        AMC - An Air Mail Center is a postal facility at an airport     Express Mail Service - A mail class that provides
                                        that receives, concenlrates, transfers, dispatches, and         expedited delivery service for mailable mailer subjecl to
                                        distributes mail transported by air                             certain stendards. 11 is available in five basic domestic
                                        APC - Automated Postal Center, a kiosk that dispenses           service offerings (Same Day Airport Service. Cuslom
                                        postage and provides several mailing services. APCs allow       Designed Service, Next Day Service, Second Day Service,
                                        customers to weigh, calculate, and apply exact poslage,         and Military Service). Express Mail International Service
                                        and ship Express Mall and Priority Mail items, pacl^ges,        is available between the United States and most foreign
                                        and Firsl-Class letters right at ihe kiosks. They also          countries. Express Mail is a Postal Service trademark.
                                        provide easy access lo poslal products and services.            False billings scheme - Mailing solicitetlons in the guise
                                        Bargaining unit employee - A Postai Service employee            of billings.
                                        who is represented by a labor organization (union) that         FECA - Postal Service employees injured while performing
                                        negotiates with the Postal Service for the wages, hours,        their duties may be eligible for compensation under the
                                        and other terms and conditions of employment. These             Federal Employee's Compensation Act (FECA),
                                        employees include City Carriers, Clerks, Mail Handlers,         FEHB - The Federal Employees Healih Benefits (FEHB)
                                        Rural Carriers, Special Delivery Messengers. Maintenance        program helps federal employees, retirees, and their
                                        Employees, and Motor Vehicle Operators.                         survivors meet healthcare needs through a wide selection
                                        BDS-See Biohazard Detection System,                             of health plans across Irie country,
                                        BMC - Bulk Mail Center, where packages and stendard             First-Class Mail - A ctess of mail that includes all matter
                                        maii are processed.                                             wholly or partly in writing or typewriting, ail actual and
                                        BMEU - See Business mail entry unil.                            personal correspondence, all bills and statements of
                                                                                                        account, and all matter sealed or olherwise closed against
                                        Sulk mall - Mall thai Is rated ior postage partly by weight     inspection, FIrst-Ctess Mail comprises three subclasses:
                                        and partly by the number of pieces in the mailing. The          postcards, letters and sealed parcels, and Priority Mall.
                                        term is generally used to refer io Standard Mail (A).           Any mailable matter may be sent as First-Class Mall,
                                        Business Mail Entry Unft (BMEU) - The area of a postal          First-Class Mail is a Postal Service trademark.
                                        facility where mailers present bulk, presorted, and permit
                                                                                                        Flat-slie mall - A mailpiece trial exceeds one oflhe
                                        mail lor acceptence. The BMEU includes dedicated
                                                                                                        dimensions for letter-size mail (11-1/2 Inches long, 6-1/8
                                        platform space, office space, and a slag Ing area on the
                                                                                                        Inches high, 1/4 Inch thick) but that does not exceed the
                                        workroom floor.
                                                                                                        maximum dimension lor the mail processing category (15
                                        Biohazard Detection System -The Biohazard Detection             inches long, 12 inches high. 3/4-inch thick). Dimensions
                                        Syslem (BDS) is a system thai is used lo detect the pres-       are different for aulomalion rate flat-size mail eligibility.
                                        ence ol harmful bio-a gents that may exist in maiipieces        Flat-size mail may be unwrapped, sleeved, wrapped, or
                                        that are processed in Processing and Distribution Centers       enveloped.
                                        (P&DCs) operaled by the Postel Service. The BDS continu-        fraud Internet schemes - Fraudulent schemes using the
                                        ously monitors ihe air for hazardous aerosol conteminants
                                                                                                        Internet with a connection to the mall.
                                        that may be released by mail being handled by one or
                                        more Postal Service mail processing systems.                    FY-Fiscal Year

                                        Carrier Sequence Barcode Sorter (CSfiCS) - This Is              Highway contract routes - A route served by a postal
                                        a small, high-speed barcode sorter machine designed spe-        contracior to carry maii by highway between designated
                                        cilically for decentralized processing in associate offices,    points,
                                        ll has a throughput of about 19,000 pieces per workhour         lEMP - The Postal Service's Integrated Emergency
                                        CPU - CPUs are contractor-owned and operaled facilities,        Management Pten Ihat improves coordination or planning
                                        under contraci to the Poslal Service to provide selected        and response activities among functional areas in the
                                        postal services such as accepting mail and selling              event of an emergency,
                                        poslage, supplies, and Poslal Service money orders to           IMPAC - The International Merchant Purchase Authoriza-
                                        the public. CPUs are usually located in a slore or place of     tion Cards (IMPAC) are how the Postal Service acquires
                                        business.                                                       goods and services through conlracte.
                                        Delivery Barcode Sorter (DECS) - This Is a multi-level,         Logistical support network - Activities or programs
                                        high-speed barcode sorting machine located In mail              that support ihe transportalton oi mail, such as hiel
                                        processing facilities, DBCS throughput Is about 39,000          procurement, mail transport equipment procurement and
                                        pieces per workhour,                                            management, and vehicle management and mainlenance.
                                        END initiative - The Evolutionary Network Development           Lottery scheme - Advertisements seeking money or
                                        (END) Iniliative Is the next step in the Poslal Service's ef-   property by maii for participabon in schemes to win prizes
                                        forts to create a flexible logistics network to reduce cosis,   through chance.




    601 Semiannual Report to Congress
Merchandise failure to pay scheme - Mall order                                       stetions, post office branches, contract postal units, and
merchandise acquired without providing payment.                                      nonpersonnel units,
Merchandise misrepresentation scheme - Mail order                                    SSPC - Sell-Service Postal Centers are unstaffed Postal
merchandise or services that are materially misrepre-                                Service vending machines that provide postage stamps
sented in advertising.                                                               and other relaii products and services.
OWCP - Administered by the U.S. Deparboent of Labor,                                 Standard Mail - A ctess of mail that includes advertise-
the Office of Workers' Compensation Programs (OWCP)                                  ments, circulars, newsletters, magazines, small parcels,
provides direct compensation to providers, claimants, and                            and merchandise.
beneficiaries.                                                                       Unsupported costs - Costs that are questioned because
PCIE / ECIE - The President's Council on Iniegrity and                               of inadequate supporting documentetion for the proposed/
Efficiency and Executive Council on Integrity and Efficiency                         claimed coste.
(PCIE-ECIE) address Integrity, economy, and effectiveness                            USPIS - U.S, Postal insoection Service, a law enforcement
Issues ihat transcend individual government agencies.                                arm ol the Postal Service that provides assurance to
This organization also seeks to Increase the professional-                           American businesses for the safe exchange of funds and
ism and effectiveness of IG personnei throughout the                                 securities through the U.S. Mail; to postel customers of
government.                                                                          ihe "sanctity of the seal" in Iransmiltlng correspondence
Postal Rate Commission (PRC) - An independent federal                                and messages; and to postal employees ol a safe work
agency that makes recommendalions on Postal Service                                  environment
requests for changes in postal rates and mail classifica-                            Verification - The procedural checks of a mailing
tions. The live commissioners are nominated by the                                   presented by a mailer to determine proper preparation and
President and approved by the U.S. Senate.                                           postage paymeni.
Postal Reorganization Act - The stetute that requires                                Value proposition - Develops audil work that maximizes
postel rates and fees K "provide sufficient revenues so                              benefits to the Postal Service and assists top management
Biat the lotal estimated income and approprialions,, .will                           in reaching their goals.
equal as nearly as practicable tolal estimated costs,"
(Public Law 91-375, signed August 12,1970.)                                          VESS - Vending Equipmeni Sales and Service (VESS)
                                                                                     System data is an online database that offers real-time
Priority Mail - First-Class Mail that weighs more than                               tracking ol product sales, miscellaneous cosis, and
13ouncesand, at Ihe mailer's option, any olher mail                                  maintenance and service for vending machines.
malter weighing 13 ounces or less. Priority Mall provides
expedited delivery.                                                                  VMF - A Vehicle Maintenance Facility (VMF) is where the
                                                                                     Postal Service maintains and repairs vehicles.
Processing and Distribution Center/Facility (P&DC/F)
- A central mail tacilily thai processes and dispatches                              Voyager Fleet Cards - These are credit cards used
part or all of both incoming mail and outgoing mail for a                            by poslal employees to acquire automotive goods and
designated service area. It aiso provides instructions on                            services, such as gasoline or repairs,
the preparation of collection mail, dispateri schedules, and                         Worit at home scheme - Schemes, such as envelope
sorting plan requiremenis to mailers.                                                stuffing, ihat do not provide home employment.
Remote Encoding Centers - When all computer-based
means of resolving address Intormation have been
exhausted at a mall facility, an image of an address Is
sent to a remote encoding center (REC), where operators
use video display temiinals and keyboards to process
the address information. The resulte of this encoding
are sent back electronically to the facility that has ihe
mailpiece. thereby keeping ihe mailpiece in the automated
mailstream.
Retail facility - A poslal unit of a Post Office and Ite
subordinate units as well as military Posl Offices that sell
poslage stemps and provide olher postal retail services
to customers. The subordinate units are within the
service area of a main post office and Include post office



ThBTallDwingareamDngtliemaiiytniDemBiksimnBdbyl^eUmlerlSlalespDslalSeiviceiUniledSlaieaPDstaiServiceK, U.S. Poslal S r v l c v S . D ^ ^
Class Mail®. USPS.com®, Click-W-Shlp®, Aiitoinated Postal Centet®, APC®. Express Mall®, Prlciily Mail®, StandarO fiflalie. Paicel Posl®. The Poslal
Slme®, Media Mail®, Cuslonmed Maikel Hail®, UnrlM Elates Postal Seivice Ollite ol inspectO' General®, ?osl OUice"". Postal Service™, Signatuts




                                                                                                                                                                                                          J
ConfltfnatloJi'", Certltletl M a i l ' " , Dellvatv Corlirmation™, HegistereC MaiP", Post Ottice B o t ' " , ZIP Code'*', Camer PIckiip'" and Postmaster General™. The
Sonic Eagig Logo, and the MaiiTiijck Design ate also leriistetedlrademaiks Belonging to llie U.S Poslal Seivice.




                                                                                                                                                                         April 1 - September 30,2006161
                                                                                                                                                                                                          1
m
                                          NOTES
m-




     62 I Semiannual Reporl to Congress
